<html>
<title> - H.R. 815; H.R. 3018; H.R. 3634; H.R. 3949; H.R. 3965; A Draft Bill Entitled, ``To Amend Title 38, United States Code, To Eliminate The Applicability Of Certain Provisions Of The Administrative Procedure Act To Housing And Business Loan Programs Of The Department Of Veterans Affairs''; And A Draft Bill Entitled, ``To Amend Title 38, United States Code, To Make Certain Improvements To The Use Of Educational Assistance Provided By The Department Of Veterans Affairs For Flight Training Programs''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  H.R. 815; H.R. 3018; H.R. 3634; H.R. 3949; H.R. 3965; A Draft Bill 
  Entitled, ``To Amend Title 38, United States Code, To Eliminate The 
Applicability Of Certain Provisions Of The Administrative Procedure Act 
  To Housing And Business Loan Programs Of The Department Of Veterans 
   Affairs''; And A Draft Bill Entitled, ``To Amend Title 38, United 
  States Code, To Make Certain Improvements To The Use Of Educational 
 Assistance Provided By The Department Of Veterans Affairs For Flight 
                          Training Programs''

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 11, 2017

                               __________

                           Serial No. 115-33

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                 _________ 

                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-341                      WASHINGTON : 2018            
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                      Wednesday, October 11, 2017

                                                                   Page

H.R. 815; H.R. 3018; H.R. 3634; H.R. 3949; H.R. 3965; A Draft 
  Bill Entitled, ``To Amend Title 38, United States Code, To 
  Eliminate The Applicability Of Certain Provisions Of The 
  Administrative Procedure Act To Housing And Business Loan 
  Programs Of The Department Of Veterans Affairs''; And A Draft 
  Bill Entitled, ``To Amend Title 38, United States Code, To Make 
  Certain Improvements To The Use Of Educational Assistance 
  Provided By The Department Of Veterans Affairs For Flight 
  Training Programs''............................................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

Honorable John H. Rutherford, U.S. House of Representatives, (FL-
  04)............................................................     3
    Prepared Statement...........................................    27
Honorable James A. Himes, U.S. House of Representatives, (CT-04).     4
    Prepared Statement...........................................    27
Honorable Martha McSally, U.S. House of Representatives, (AZ-02).     5
    Prepared Statement...........................................    28
Honorable Ro Khanna, U.S.House of Representatives, (CA-17).......     7
    Prepared Statement...........................................    29
MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     9
    Prepared Statement...........................................    30

        Accompanied by:

    Mr. Jeffrey London, Director, Loan Guaranty Service, Veterans 
        Benefits Administration, U.S. Department of Veterans 
        Affairs

Mr. John Kamin, Assistant Director, Veteran Employment and 
  Education, The American Legion.................................    10
    Prepared Statement...........................................    32
Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................    12
    Prepared Statement...........................................    37

                       STATEMENTS FOR THE RECORD

Helicopter Association International.............................    41
Jim Hines Addendum...............................................    43
Honorable Lee M. Zeldin, U.S. House of Representatives (NY-01)...    44
Mortgage Bankers Association (MBA)...............................    45
Veterans Education Success (VES).................................    46
Veterans of Foreign Wars of The United States (VFW)..............    47


  H.R. 815; H.R. 3018; H.R. 3634; H.R. 3949; H.R. 3965; A Draft Bill 
  Entitled, ``To Amend Title 38, United States Code, To Eliminate The 
Applicability Of Certain Provisions Of The Administrative Procedure Act 
  To Housing And Business Loan Programs Of The Department Of Veterans 
   Affairs''; And A Draft Bill Entitled, ``To Amend Title 38, United 
  States Code, To Make Certain Improvements To The Use Of Educational 
 Assistance Provided By The Department Of Veterans Affairs For Flight 
                          Training Programs''

                              ----------                              


                      Wednesday, October 11, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Wenstrup, Rutherford, 
Banks, O'Rourke, Takano, Correa

             STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. The Subcommittee 
will come to order. I know we have and anticipate a few more 
witnesses, but we will go ahead and get started.
    I want to thank you all for joining us here today to 
discuss seven pieces of legislation pending before the 
Subcommittee with the intentions of benefitting the lives of 
our servicemembers, veterans and families.
    The bills brought forth by our colleagues today would make 
improvements to the Transition Assistance Program; streamline 
the approval of apprenticeship and pre-apprenticeship programs 
for GI Bill funding; VA's Home Loan Program, so that veterans 
and their families can afford to buy their own home in high-
cost areas, and improve veterans' ability to rent a home while 
they are attending school on the GI Bill.
    I will let our colleagues who introduced these pieces of 
legislation discuss their bills in greater detail, but I do 
want to briefly discuss the two draft bills on the agenda today 
that have not yet been introduced.
    One of the bills is a proposal to change how flight schools 
are paid for under the GI Bill. It is similar to a bill that 
Dr. Wenstrup introduced last Congress and that moved out of the 
House unanimously, which required tuition and fee payments 
under the GI Bill spent at flight schools and other contracted 
programs at public schools to be placed under the same cap that 
is in place for private schools, which is currently at $22,850 
a year. This proposal, however, would include this cap, but 
would also allow veterans to elect to have these payments 
accelerated, so that they can receive double the amount of 
tuition and fee payments over a shorter period of time.
    This was a suggestion from the flight programs to address 
the higher expenses we have seen associated with flight 
training and the shorter time period needed to complete the 
training.
    This proposal would also allow for a private pilot's 
license to be paid for under the GI Bill, which is currently 
not allowed.
    I want to reiterate that this is still only a draft 
proposal and I look at today's hearing as an opportunity to 
receive feedback from stakeholders on this particular proposal.
    The second proposed draft bill would change current law to 
provide the Secretary greater flexibility to avoid issuing 
regulations related to VA-backed home loans. The Administrative 
Procedures Act exempt non-VA home loan programs like FHA, 
Freddie and Fannie Mac, and Ginnie Mae from the formal rule-
making provisions; however, VA is still required to issue 
formal rules related to the home loan program. As a result, VA 
has less flexibility to quickly respond to predatory practices 
that occur in the housing market because VA must issue formal 
regulations each time. This draft will simply allow the VA to 
make changes without rulemaking to protect veteran home buyers.
    I am eager to discuss each of these seven pieces of 
legislation before us today, and I am grateful to my colleagues 
who have introduced these bills and to our witnesses for being 
here to discuss them. I look forward to a productive and 
meaningful discussion.
    Now I will yield to my dear friend and fellow Texan Beto 
O'Rourke.

           STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman, for bringing us all 
together and bringing our witnesses together here.
    I am also grateful for the work and thought that have been 
invested in these bills and I look forward to hearing about 
them directly from the authors of these bills, and then having 
a chance to hear General Worley and his thoughts in response 
and in answer to our questions.
    So with that, I will yield back to you and we will begin to 
receive testimony.
    Mr. Arrington. I thank the Ranking Member.
    Before I recognize our colleagues at the table, I want to 
yield to our colleague and my friend Mr. Rutherford from 
Florida for 5 minutes to discuss his bill, H.R. 3965.
    Mr. Rutherford.

       OPENING STATEMENT OF HONORABLE JOHN H. RUTHERFORD

    Mr. Rutherford. Chairman Arrington, Ranking Member 
O'Rourke, and fellow Members of the Subcommittee, I want to 
thank you for this opportunity to speak on behalf of my 
legislation, the Veterans Armed for Success Act.
    While in my district in Northeast Florida and in my time 
serving on this Committee, I have heard how companies prefer to 
hire veterans for many different reasons: they are responsible, 
responsive, and hardworking. Their skills translate well into 
many fields and, in short, veterans get the job done right. Yet 
many veterans I have met feel frustrated with their post-
service career opportunities and often do not know how to 
translate their learned skills into the job market.
    There are few things more important to the quality of life 
for our Nation's veterans than transitioning into stable, long-
term employment. It creates economically prosperous families, 
it builds our local communities, and, of extreme importance, it 
improves the mental health for many of our veterans.
    In response to these growing needs of veterans and their 
families in our area, Operation New Uniform in my home city of 
Jacksonville was created. With large Navy, Marine Corps, and 
Florida Guard installations in my district, thousands of active 
duty personnel and over 150,000 veterans, retired veterans call 
Northeast Florida home. And when you match this population with 
the huge corporate interest in Jacksonville, ONU, as Operation 
New Uniform is known, they have successfully matched these 
veterans with companies looking to hire veterans. And through 
their skill-based learning and training, 96 percent of veterans 
that have gone through their program have found meaningful 
careers within 4 months of completing the program.
    I have spoken at the ONU graduation and seen firsthand how 
effective this program can be. It has been a huge win for both 
veterans and Northeast Florida businesses. While the group has 
been hugely successful, ONU is funded through private donations 
and, unfortunately, they have had to turn away many veterans 
who apply for the program because they simply do not have 
enough resources.
    When I first met with the group, I was surprised to hear 
that. Currently, no Federal program exists for these 
organizations. And looking further into the issue, I learned 
that while the DoD Transition Assistance Program, TAP, and 
efforts at the Department of Labor have worked to meet 
veterans' needs, clearly there needs to be some supplemental 
off-base programs for those who need further assistance in 
finding employment. ONU is just one example of many 
organizations that the VA, DoD, and DOL can work with more 
closely to ensure that the programs and resources our veterans 
receive are directly leading to long-term careers.
    My legislation will create a Federal grant-matching program 
to encourage more organizations to set our veterans up for 
success, will shore up our commitment to getting resources to 
veterans in need of further assistance, and will also gauge the 
nationwide need for programs like ONU.
    And so in closing I would like to thank the Chairman, the 
Ranking Member, my fellow Congressman from Jacksonville Al 
Lawson, who is introducing this bill with me, and as well my 
colleagues on the Subcommittee and Subcommittee staff for their 
commitment to this and other bills under consideration today 
that will truly improve the economic livelihood of our 
veterans.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Rutherford appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Rutherford.
    It is an honor to be joined by our colleagues Mr. Himes of 
Connecticut, Ms. McSally of Arizona, and Mr. Khanna of 
California, who I know will be here any minute. I want to thank 
you guys for being here. We will give you 5 minutes to make 
your presentation and we will start with the gentleman from 
Connecticut, Mr. Himes.

         OPENING STATEMENT OF HONORABLE JAMES A. HIMES

    Mr. Himes. Thank you, Chairman Arrington, Ranking Member 
O'Rourke, and Members of the Subcommittee for the opportunity 
to testify today on the Securing Electronic Records for 
Veteran's Ease, or SERVE Act. I would also like to thank my 
cosponsors, including Representative Coffman, Representative 
Holmes Norton, Representative Crowley, and Representative 
Estey.
    Mr. Chairman, I will give a brief summation of my 
testimony, but would be grateful for the opportunity to place 
the written testimony on the record.
    Mr. Chairman, veterans and their families face real 
challenges when they transition to civilian life. We have an 
important responsibility, as you know all too well, to do 
everything that we can to help. Finding housing, a roof over 
their heads, should not be an ordeal, especially if it is 
caused by difficulties in showing the stipend that veterans get 
from Uncle Sam.
    Mr. Chairman, in conversations with student veterans 
throughout my district, proof of income for housing kept coming 
up as a big challenge. One ex-Marine, Nicholas Quinzi, the 
founder of the Student Veterans Club at Sacred Heart University 
in my district, told my office that if he had a wish list of 
things to make the veteran experience better, the number-one 
item would be fixing the lack of verification available for the 
monthly housing stipend. He says, I quote, ``I am a full-time 
student. I can't really have a full-time job while taking 5 or 
6 classes a semester, as well as summer classes, so my income 
isn't really income, which means there's no way for me to 
procure a house. Even attempting to rent is a nightmare.''
    The fact that Nick and many veterans like him have no proof 
of income that a property management firm could consider when 
weighing creditworthiness and income is just silly.
    Here is the commonsense fix: H.R. 3634 would require the 
Department of Veterans Affairs to make documentation of Post-9/
11 GI Bill monthly housing stipend accessible and available 
online. Student veterans will use this documentation to provide 
the needed verification to housing agents, leasing companies, 
and landlords.
    This legislation could have a big effect. Currently, there 
are approximately 1.1 million students using the Post-9/11 GI 
Bill.
    I appreciate the VA's attention to this issue and 
understand that they support the intent of the bill, but that 
they feel that the goals of the legislation have been met with 
the availability of a statement of benefits. Unfortunately, Mr. 
Chairman, the statement of benefits does not solve this 
problem. Not all authorized Post-9/11 GI Bill beneficiaries 
have access to the statement of benefits on Vets.gov and the 
statement is not always accepted as proof of income.
    The statement of benefits also includes personal data and 
information that veterans might not want to share with 
landlords.
    So an official form accessible on the e-benefits portal 
verifying the benefit is necessary. This functionality already 
exists for civil service preference, commissary and exchange 
privileges, proof-of-service cards, and VA compensation and 
pension benefit verification.
    In closing, Mr. Chairman, I would like to thank the 
Subcommittee for its consideration of the Securing Electronic 
Records for Veteran's Ease Act, and I look forward to working 
with the Members of this Committee to continue to support our 
student veterans.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.

    [The prepared statement of Mr. Himes appears in the 
Appendix]

    Mr. Arrington. Mr. Himes, thank you for your interest in 
helping serve our veterans, I think I can say that on behalf of 
the entire Subcommittee, and thanks for your time today.
    Ms. McSally, 5 minutes.

         OPENING STATEMENT OF HONORABLE MARTHA MCSALLY

    Ms. McSally. Thank you, Chairman Arrington, Ranking Member 
O'Rourke, and Members of the Subcommittee. Thanks for having me 
here to speak about an issue of immense importance to our 
servicemembers and veterans, the transition from service life 
to civilian life.
    Having served in the U.S. Air Force myself for 26 years and 
knowing a lot of people who have as well, I know how difficult 
it can be for veterans to navigate the job search as a private 
citizen and transition.
    My bill is the Veterans' Entry to Apprenticeship Act, H.R. 
3018, and it will ease this process for outgoing servicemembers 
by allowing them to use their education benefits they have 
already earned to participate in pre-apprenticeship programs 
that are proven to increase the likelihood of gainful 
employment.
    At a time when our vets are seeing daunting rates of 
underemployment and our national skills-based workforce is 
shrinking, we must find creative solutions to bolster resources 
we are offering to our vets.
    The Bureau of Labor Statistics estimates that in 2016 the 
annual unemployment rate for post-9/11 vets was 5.1 percent, 
compared to the national average was 4.6 percent. Although we 
have seen unemployment rates for veterans decreasing overall 
since 2011, which is good, their rate of underemployment is 
actually increasing. In fact, in 2016, more than 27,000 
veterans were getting help from job search grantees, which is a 
23-percent growth over 2015.
    In other words, while more veterans are finding jobs, they 
aren't finding the right jobs that allow them to take care of 
their families, advance their careers, or find new career 
paths. Many veterans today have to work two or even three jobs 
just to make ends meet.
    What's worse is we know that businesses and organizations 
want to hire veterans. According to a 2016 report by the U.S. 
Chamber of Commerce's Hiring Our Heroes Program, they found 
that veterans are ranked third on employer's lists for priority 
recruitment behind women and candidates with advanced degrees. 
I am glad I have all three of those in case I am looking for a 
job, but I can imagine, I talk to employers all the time and 
they want veterans working for them. The core values that we 
bring to an organization of integrity, of excellence and 
dedication, and teamwork and reliability, all those things are 
the soft skills that employers I talk to every single day want.
    Evidence shows businesses across the country want to hire 
and train the veterans, but many cannot because they can't 
accept untrained veterans to their programs, because the basic 
fees that the veteran has to pay they just can't pay out of 
pocket for these pre-apprenticeship programs.
    Additionally, our Nation is facing a growing shortage of 
qualified skills-based and trade-based workers. According to a 
study conducted in 2012, 53 percent of skilled U.S. workers 
were 45 years or older and 20 percent were over the age of 55. 
So this shortage is even greater for employees in high 
technical fields like cyber security. It is imperative we 
attract a new, younger workforce willing to apply themselves in 
these highly technical fields if we hope to remain competitive 
in the global economy.
    A way to fix the problem is to make it easier for veterans 
to take advantage of apprenticeship programs in these skill-
based fields. In particular, the Department of Labor has 
endorsed pre-apprenticeship programs as a path to helping 
individuals learn about the new careers, acquire new trade-
based skills, qualify to meet the minimum standards for other 
Federal apprenticeship programs, and get a leg up on their 
apprenticeship applications. However, their GI Bill benefits 
may not be used right now to supplement the cost of these 
Department of Labor-approved pre-apprenticeship training 
programs in skilled industries. It simply does not make sense.
    The Veteran's Entry to Apprenticeship Act would remedy this 
issue by requiring the Department of Veterans Affairs to allow 
Post-9/11 GI Bill benefits to be used to cover costs of pre-
apprenticeship programs, in addition to apprenticeship 
programs. This is a commonsense step that would provide 
veterans with additional resources to acquire new skills, give 
businesses a cost-effective path to a younger, willing 
workforce, and provide a pipeline of new workers in highly 
technical fields for the future workforce.
    With an increasing number of post-9/11 veterans looking to 
enter the workforce and an estimated 453,000 veterans facing 
unemployment, now is a perfect time to encourage our war 
fighters to pursue careers in these high-demand occupations. 
Expanding job training opportunities for veterans not only 
makes sense for our veterans, but it is also a win for our 
businesses.
    Again, thanks for allowing me to speak on this important 
issue for our veterans and our national economy.
    Additionally, I would like to thank the 13 other 
cosponsors, including Members of this Committee, as well as 
various outside groups that support my legislation that include 
the National Guard Association of the United States, the 
Reserve Officers Association, the Enlisted Association of the 
National Guard, the National Roofing Contractors Association, 
the National Association of Home Builders, and the Associated 
General Contractors for their support for my bill.
    And thank you, Mr. Chairman. I yield back.

    [The prepared statement of Ms. McSally appears in the 
Appendix]

    Mr. Arrington. The gentlelady from Arizona yields back. And 
I want to say again to both of you on behalf of the Committee, 
we appreciate you proposing commonsense solutions to help serve 
our veterans.
    Ms. McSally, thank you for your service to our country.
    Ms. McSally. Absolutely.
    Mr. Arrington. And God bless both of you. And I think, 
unless there are any further questions or comments, we are 
going to dismiss you all, and then we are going to make Mr. 
Khanna pay for being late in some way. We may cut him some 
slack, because he just had a newborn baby boy and so he may be 
a little disheveled, but thank you all for coming. I hope this 
is all for the record.
    [Laughter.]
    Mr. Arrington. Okay. Let's now recognize and make 
introductions regarding our second and final panel. And then, 
again, we will work Mr. Khanna in as he joins us.
    Welcome back General Bob Worley, Director of VA's Education 
Service, who is accompanied by Mr. Jeff London, Director of 
VA's Loan Guaranty Service.
    I also want to welcome back Mr. John Kamin, Assistant 
Director of Veterans Education and Employment for The American 
Legion. And, finally, Mr. William Hubbard, Vice President of 
Government Affairs for Student Veterans of America.
    Thank you all for being here today.
    And here is Representative Khanna. If you would come sit 
with us on the dais. And before I get to the panelists before 
us, we would like to hear a little bit about your piece of 
legislation that I am very familiar with as a cosponsor and so 
honored to be a part of this effort and this commonsense 
solution to streamline some things for our veterans regarding 
apprenticeship programs.
    Mr. Khanna, you have got the floor for 5 minutes.

            OPENING STATEMENT OF HONORABLE RO KHANNA

    Mr. Khanna. Well, thank you, Chairman Arrington and Ranking 
Member O'Rourke, for your leadership in helping craft this 
legislation and working with the veterans groups on this 
legislation. I really appreciate your personal commitment to 
these issues and working with Joe Wescott and others to craft 
this bill.
    I am Congressman Ro Khanna. I have the honor of 
representing Silicon Valley in the 17th District of California. 
And last week, after a few months of meetings and discussions 
with think tanks and companies, the National Association of 
State Approving Agencies, and Members of this Committee, 
including both of you, introduced 3949, the Veterans 
Apprenticeship and Labor Opportunity Reform bill, the VALOR 
Act.
    And I want to note here the extraordinary moment where you, 
Mr. Chairman and Ranking Member, made this your bill in getting 
on the bill and that that is not typical, and it is a 
commitment to the bipartisan work of Congress.
    This legislation is very simple: it basically provides 
veterans with greater access to apprenticeships. Right now, if 
you are a company and you want to provide an apprenticeship for 
a veteran, you have to get approval not just from the state 
agency where you are located, you also have to get approval 
from every single state where you want to provide that 
apprenticeship. And we have heard from both veterans, from the 
state agency, and from companies that this was an 
extraordinarily cumbersome process. And particularly states, 
some of whom that have only a few veterans, didn't have many 
veterans, companies wouldn't want to go there to provide the 
apprenticeship because they didn't want to have to go through 
all the bureaucratic paperwork of having to go through the 
approval process.
    So this idea came actually from the state approval agencies 
themselves in discussion with your offices, and with the 
majority and minority staff, and they helped streamline the 
process. So now the approval would just have to be in where the 
company is headquartered. And they would of course coordinate 
with the other states where they are providing apprenticeships, 
but they are not going to have to fill out duplicative 
paperwork again and again. And as a result, I think that we are 
going to see many more companies providing these 
apprenticeships.
    I am also proud to say that it is bicameral in nature. 
Senator Cotton and Senator Tillis have introduced companion 
legislation in the United States Senate as Senate Bill 1936.
    Finally, I must thank Joe Wescott, the Legislative Director 
at the National Association of State Approving Agencies, for 
working in a bipartisan basis with you, Mr. Chairman, our 
Ranking Member, our office, Gio Saba [ph] on my team, who has 
done tremendous work in coming up with legislation that would 
have the buy-in of both his agency, the companies and the 
veterans.
    A lot of times people say to me as a freshman Member of 
Congress, you know, it seems so partisan, how do you enjoy 
being in Congress, what can you get done, and it is really 
moments like this that I point to in saying, you know, people 
around here do want to do things that are going to move the 
ball forward. I think this is an example of legislation that is 
bipartisan, it helps our veterans, it is in the Nation's 
interest. We are going to see more people who make the ultimate 
sacrifice sign up to serve our country have an opportunity now 
to join the private sector because of legislation like this.
    So I just want to thank you, Mr. Chairman, for your 
leadership, Ranking Member O'Rourke for your leadership, and 
look forward to assisting in any way as your Committee has 
questions.

    [The prepared statement of Mr. Khanna appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Khanna, for your interest in 
serving our veterans and your leadership, your bipartisan 
leadership on this effort.
    And I mentioned the newest member of the Khanna family, 
Baby Soren, and we are very proud of you and he is beautiful 
and congratulations. And now you can get out of here.
    Mr. Khanna. Thank you. The only one I keep waiting, Mr. 
Chairman, for you is my son and wife and that is why I was a 
little late. So I apologize, but thank you for giving me the 
chance.
    Mr. Arrington. That is a good excuse, we will accept that 
one today.
    Now let's go back to our panelists and we will give General 
Worley 5 minutes. The floor is yours.

              OPENING STATEMENT OF GENERAL WORLEY

    General Worley. Good afternoon, Mr. Chairman, Ranking 
Member O'Rourke, and Members of the Subcommittee. I am pleased 
to be here today to provide the views of the Department of 
Veterans Affairs on the pending legislation.
    Accompanying me today is Mr. Jeff London, Director of our 
Loan Guaranty Service.
    Due to when we received the notice of the hearing and the 
draft bill text on the Administrative Procedures Act, we will 
follow up with the Committee as soon as possible on H.R. 815, 
H.R. 3018, and the APA draft bill.
    H.R. 3634 would ensure that individuals may access 
documentation verifying the monthly housing stipend paid to the 
individuals under the Post-9/11 GI Bill. VA supports the intent 
of the proposed legislation, but notes this change would 
provide access to similar information currently available to 
veterans through a recently launched statement of benefits 
letter, which is printable and accessible through Vets.gov. The 
letter provides a link to the amount of a veteran's monthly 
housing stipend, and other eligibility and entitlement 
information under the Post-9/11 GI Bill.
    Presently, as Congressman Himes mentioned, the statement of 
benefits is only available for veterans, but we are working to 
make it available for all beneficiaries.
    H.R. 3949 would designate the State Approving Agency, as 
you just heard, for the state in which the headquarters of a 
multi-state apprenticeship program is located as the approving 
agency for this program. VA supports this bill.
    Currently, non-Federal apprenticeship programs operating in 
more than one state must request approval from each SAA in that 
state in which it operates. The proposed legislation would 
allow one SAA to approve the multi-state apprenticeship 
program, making it much easier for multi-state employers to 
establish apprenticeships throughout the country.
    VA, however, would recommend that the phrase ``headquarters 
of the apprenticeship program'' be further defined so as to 
prevent competing claims of jurisdictional authority from 
multiple SAAs?
    H.R. 3965 authorizes VA to make grants to organizations 
that would provide employment assistance to recently 
transitioned servicemembers. Recipients of the grant would 
provide resume assistance, interview training, job recruitment 
training, and related services. We would like to note that 
these services are currently provided by the Department of 
Labor through our memorandum of understanding between our 
departments and, therefore, the intent of this bill might be 
best accomplished by the Department of Labor.
    The draft flight school bill related to flight programs 
would make certain improvements to the use of educational 
assistance provided by VA for flight training programs. Section 
1(a) of the proposed legislation would remove the requirement 
for an individual receiving Montgomery GI Bill active duty 
benefits to possess a valid private pilot's certificate before 
qualifying to receive benefits for flight training.
    VA supports the intent of section 1(a); however, we do have 
concerns about removing this requirement, as this would allow 
certain individuals to pursue private flight training as an 
avocation as opposed to a vocation.
    Section 1(b) would allow an individual receiving Post-9/11 
GI Bill benefits to elect to receive accelerated payments for 
tuition and fees of flight training pursued at institutions of 
higher learning. VA does not support section 1(b).
    Under this provision, individuals would exhaust their 
entitlement prior to completing their program of education and, 
in addition, the amount of an accelerated payment could exceed 
the actual cost of tuition and fees charged for any given 
enrollment period.
    VA supports sections 1(c) and 1(d), which are consistent 
with our fiscal year 2018 budget submission, and would limit 
the amount of tuition and fees paid for enrollment in flight 
programs at certain programs at IHLs that are part of a 
contract or agreement with an entity other than another public 
IHL.
    VA remains concerned about high tuition and fee payments 
for enrollment in degree programs and especially those 
involving flight training at public IHLs; these sections of the 
proposed legislation would remedy this situation.
    Mr. Chairman, this concludes my statement. We appreciate 
the opportunity to present our views and look forward to your 
questions.

    [The prepared statement of General Worley appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Worley.
    And now 5 minutes for Mr. Kamin.

                OPENING STATEMENT OF JOHN KAMIN

    Mr. Kamin. Thank you, Mr. Chairman. Good afternoon, Ranking 
Member O'Rourke and Members of the Subcommittee.
    On behalf of National Commander Denise Rohan and over 2 
million members of The American Legion, we thank you for the 
work you do in support of veterans, as well as their families.
    With the passage of the Harry Colmery Veterans Educational 
Assistance Act, we are honored to join you in a meaningful 
discussion on how we can continue to work together to improve 
the GI Bill.
    I will be focusing only on two bills for the purpose of 
framing discussion in two critical areas: improving the GI Bill 
Apprenticeship Program and stabilizing costs for flight 
schools.
    To begin with apprenticeships, H.R. 3949, the VALOR Act. 
Quite simply, this bill would streamline approval for 
organizations with multi-state apprenticeship programs. Under 
current law, apprenticeship programs must be approved by all 
the SAAs they are operating in in order to be deemed eligible 
for GI Bill use. Companies and organizations operating in 
multiple states have to submit multiple applications for 
approval that are subject to different interpretations. 
Designating a headquarters-based SAA the approving authority 
for all states clearly streamlines this process.
    The American Legion supports this as an important step to 
improving the GI Bill Apprenticeship Program. However, we are 
duty-bound to inform this Subcommittee that significant 
problems still remain with the apprenticeship program.
    A 2015 GAO report recommended that the VA improve outreach, 
ease administrative challenges, and establish outcome measures 
for its OJT and apprenticeship program. However, after 
discussing apprenticeship with stakeholders across industries, 
it became clear that the need for administrative reforms far 
outweighs any concerns with outreach. To put it bluntly, no 
amount of marketing or advertising can sell a broken program, 
and initial feedback suggests that fixes are desperately 
needed.
    What every company or organization enrolled in the GI Bill 
Apprenticeship Program will tell you is that the solution 
starts with electronic approval for veterans and certifying 
officials. If you are from a college or university, approval 
paperwork has been electronic since before the Post-9/11 GI 
Bill even existed. For apprenticeships, the VA uses a fax 
machine to hand-process each approval through regional offices. 
In addition to the administrative burden faced by staff, the 
effect on the veterans enrolled is also clear, as demonstrated 
by the greater rate of late payments.
    Some entrepreneurial companies and VA employees have come 
up with their go-around for this scan the hand-signed approval 
documents and email them in to a clued-in VA staffer. Of course 
there is a size limit on email for the VA, which means that a 
company scanning 500 approvals for apprenticeship may have to 
send 18 emails over the course of a day.
    Fixing these problems will not be easy, but make no 
mistake, there is exceptional potential in the apprenticeship 
program for both veterans and the country. However, promoting a 
flawed program has the potential to poison the goodwill that 
our Nation's employers have for servicemembers and veterans, 
and The American Legion believes it is high time we bring this 
program into the 21st century.
    From apprenticeships, we move on to the subject of flight 
schools. In 2015, the Los Angeles Times disclosed that some 
public schools were charging inflated costs for flight fees, 
taking advantage of a loophole in tuition for public school 
flight programs. The draft bill proposed would set flight caps 
at the tuition rate for private schools.
    Now, some may ask why veterans groups would consider 
legislation that would appear to lower the generosity of the GI 
Bill. The answer to this is that we know the road to ruin for 
the GI Bill begins when we forgo our responsibility to ensure 
that it is an honorable investment of public dollars.
    It was this Committee that in 1952 rolled back GI Bill 
benefits for Korean veterans because the original GI Bill was 
decried as open season on the U.S. Treasury. GAO attorneys 
showed that two thirds of schools overcharged the Government at 
that time to provide support on this. It is this history that 
informs the discussion of flight schools for us today. Yet our 
obligation must be measured with the responsibility that our 
Nation has to veterans using the Post-9/11 GI Bill who aspire 
to careers in aviation.
    Legislation that caps the maximum GI Bill amount per year 
for flight school would have the inevitable consequence of 
discouraging pursuit of this vocation with greater debt 
incurred by veterans and servicemembers who remain committed. 
This draft legislation takes this into account with language 
authorizing the use of additional months of eligibility to pay 
remaining tuition and fees. This would appear to alleviate 
concerns for discouraging pursuit of aviation, while putting 
the choice in the hands of the veterans for how to 
appropriately allocate their GI Bill.
    The American Legion commends the Subcommittee for pursuing 
a measured approach and is equally encouraged by the cost 
savings that have already been made at public school aviation 
programs.
    In order to support this, however, The American Legion 
calls for all cost savings projected by this measure to be 
returned to VA education programs. Absent this and with no 
resolution addressing the provisions of this legislation, The 
American Legion will continue to work with both this Committee 
and our membership to determine the course of action which best 
serves veterans.
    Chairman Arrington, Ranking Member O'Rourke, and 
distinguished Members, The American Legion appreciates the 
opportunity to comment on the bills being considered by this 
critical Subcommittee, and I will be happy to answer any 
questions you may have.
    Thank you.

    [The prepared statement of Mr. Kamin appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kamin.
    Now 5 minutes for Mr. Hubbard.

              OPENING STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Chairman Arrington, Ranking Member O'Rourke, 
and members of this customer, thank you for inviting Student 
Veterans of America to submit our testimony on legislation 
pending before this body, and our applause and appreciation to 
you both for your leadership on the passage of the Forever GI 
Bill.
    Before addressing the legislation under consideration 
today, I would like to express our concern with the proposed 
rule change posted with the Federal Register in which the 
Department of Veterans Affairs proposes waiving the law 
pertaining to conflicts of interest, 38 U.S. Code 3683. This 
law, passed by Congress decades ago, was intended to prevent 
corruption in connection with VA's administration of the GI 
Bill. The Federal notice proposes providing a blanket waiver of 
this law.
    We sent a letter to the VA and submitted public comment on 
this issue strongly urging reconsideration of this ill-advised 
proposal. We hope VA will take the public comments expressing 
concern with deep consideration and enforce the law, or 
exercise the individual waiver provision, as the law already 
affords.
    Mr. Chairman, I would like to spend the rest of my time 
addressing the challenges associated with flight programs.
    Former Chairman of the House Veterans' Affairs Committee 
Jeff Miller perfectly captured this issue in a remark last year 
as he stated, ``The GI Bill flight school loophole is so big 
you could fly a 747 through it.''
    Many of these programs cite a national shortage of pilots 
as the justification for this training, but the shortage exists 
within fixed wing aviation, planes, whereas the vast majority 
of these programs are training students in rotor wing, 
helicopters, for which there is no shortage of pilots. High-
cost programs for low-paying jobs is a model that is difficult 
to support: $534,881, $471,441, $474,566, these are just a few 
examples of the costs for individual students.
    As these programs began receiving heightened oversight from 
this Committee, several flight school lobbyists approached me 
to make me an offer, an all-expenses-paid trip to visit one of 
the schools, stating it was just near Las Vegas and they would 
be happy to cover the costs if I wanted to stay a few extra 
days. My reply to this was simple: I don't need a fancy trip to 
Vegas to know what is going on here. Just send me the data. 
That is not how I do business, that is not how Student Veterans 
of America does business.
    Many veterans were led to believe they would achieve high 
starting salaries only to learn that at the beginning of their 
career they were making less than $20,000.
    So let's review. A half million dollars for a single 
student, misleading veterans about the job market demand, 
flaunting expensive degrees in the face of Congress, and trying 
to lure potential opponents to take fancy trips to keep their 
mouths shut. These are all things that some of these schools 
looked at and thought I'm okay with that. Having been born and 
raised in the Midwest by two parents working to make ends 
meeting, I was raised to recognize between right and wrong, and 
this was wrong.
    At age 17, I enlisted in the Marine Corps with the goal of 
serving our country and building my own life. While some 
veterans choose to pursue a vocation in flight programs, many 
of these programs continue to operate at levels requiring 
vastly more resources than limits on vocational training costs.
    VA data shows that while the number of students taking 
flight training went up by only 171 students or 9 percent 
between fiscal year 2013 and fiscal year 2014, the total cost 
to taxpayers for this program grew by $37 million or 87 percent 
over the same period. As of last year, some schools averaged a 
cost of nearly a quarter million dollars per student.
    Veterans who desire a career in aviation should be able to 
achieve these goals and not at the expense of the GI Bill's 
overall sustainability. VA currently affords a maximum of 
roughly $13,000 for vocational flight training programs, yet 
many programs continue to exploit the loophole of operating 
through public and private programs, thereby undercutting the 
law.
    This legislation closes the flight loophole by 
redesignating flight training from public institutions and SVA 
supports this change. If this amount is too low, then a debate 
should be had about raising the cap to meet the costs instead 
of schools finding a slick work-around to funnel money into 
their programs.
    We thank this Committee and its Members for addressing the 
long overdue challenges of the flight school loophole, and I 
look forward to your questions about this issue and other 
important topics up for discussion today.

    [The prepared statement of Mr. Hubbard appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Hubbard, and I appreciate 
your reference to the waiver regarding conflicts of interest. 
We are looking at it now. If there is any pertinent information 
we can loop you in, we will.
    With that, let's now go--I am going to forgo questions for 
now, but yield to the Ranking Member for 5 minutes for any 
comments or questions he has.
    Mr. O'Rourke. Mr. Chairman, I will do the same with one 
quick exception.
    I wanted to ask General Worley on Congressman Himes' 
legislation, 3634, and you say the VA supports the intent of 
this. You mentioned that you feel like there is already the 
information available online with the exception of other 
beneficiaries and you said that is coming shortly. How long 
until we get there?
    General Worley. I said we are working on that part, it is 
not coming necessarily shortly, because it has to do with----
    Mr. O'Rourke. I didn't mean to put words in your mouth.
    General Worley. --it has to do with the login capability.
    And thank you for the opportunity, Mr. O'Rourke, because 
just to be clear on this capability, the statement of benefits 
capability that we put into Vets.gov is brand new, we launched 
that on 1 August. It provides benefit information, how much 
entitlement you have used, how much is left, your benefit 
level. It doesn't have currently, that document when you pull 
it up doesn't have the housing on it directly, but you can link 
to the comparison tool to get more information about the 
housing allowance.
    It sounds like what the intent of the bill is, is to have a 
document that you can take to, you know, a rental agency or a 
home rental or whatever it is to prove a certain amount of 
income. And so we are investigating and I don't think it is a 
huge lift, but our technical folks need to look at it, how we 
just grab that current housing amount that you are getting 
today and put that into the statement of benefits, and that way 
it is printable, it is directly, easily accessible for 
veterans.
    It will take some time through the digital services efforts 
to get kind of the secure logon ID for non-veteran 
beneficiaries, so that is something that is in work, but I 
can't predict the date that we will have that at this time.
    Mr. O'Rourke. I wonder if it would be possible for you to 
work directly with Mr. Himes and with his constituent. He seems 
to have somebody who can articulate very effectively what the 
problem is. I think if you can meet the concern to his 
constituent's satisfaction and if you could report back to the 
Committee, then we don't need an act of Congress to get this 
done. It seems like a very commonsense request, it seems like 
it is also something that you are working on, but it would be 
nice to have that confirmed by the veteran in question. And we 
could then take that back to our constituents and just make 
sure that it passes the test with them as well.
    General Worley. I would tend to agree that it probably 
doesn't take an act of Congress to do this. I would just point 
out, though, sir, that we can put that information out there, 
whether an apartment agency or a home rental agency, or whoever 
it is accepts that as income, that is up to them, that is not 
something we can mandate, of course.
    Mr. O'Rourke. Okay, thank you.
    As I yield back to the Chairman, I just want to also thank 
Mr. Kamin for his comprehensive testimony on all the 
legislation before us, and I want to thank Mr. Hubbard for his 
very powerful and damning testimony. I mean, it is hard to hear 
what you just shared with us and not meet this with some 
urgency about ensuring that those resources are going to where 
they are going to be most effective and that they are not 
wasted, and that we are not defrauding both the taxpayer and 
the veteran. So I just want to thank you for your testimony, I 
found it to be very powerful.
    I yield back to the Chairman.
    Mr. Arrington. The Ranking Member yields back. I thank him 
for his comments.
    And now I want to yield 5 minutes to Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    I thank the panel for being here today as we discuss some 
of these bills that I think are really going to be very 
beneficial to our veterans back home.
    Mr. Hubbard, you mentioned that the Transition Assistance 
Program maintains a heavy emphasis on employment and not enough 
on education. Do you believe this Congress needs to look at 
ways of improving TAP on a much larger scale?
    Mr. Hubbard. Thank you for the opportunity, Mr. Rutherford, 
for that question. Absolutely, in short, we believe that TAP 
overall needs a significant overhaul.
    If you consider for the majority of students, for example, 
that go to school, two thirds are first generation. That means 
over 18 years of their lifetime they don't have their parents 
teaching them the small nuances of going to higher ED, much 
like a student who has parents who went to school. For example, 
the FASFA form; who knows what the FASFA form is? If your 
parents didn't go to school, you likely don't get that 
information growing up. And to think that 18 years of societal 
and cultural knowledge can be compressed into 2 weeks as you 
get out of the military when your primary focus is making sure 
that you have housing, that your family is taken care of, and 
that you are going to be able to put food on the table, to 
think that you can compress that knowledge into that period of 
time is impossible.
    And so we think that over a 4-year period of an average 
enlistment, which is the typical individual's in the military, 
we believe that there is an opportunity to spread that 
curriculum through that 4 years, so that the information is 
both institutionalized and also understood on a much deeper 
level, so that when individuals are exiting the military they 
are able to focus on really doing that the right way versus 
trying to take this information on.
    Mr. Rutherford. Right. But more specifically drilling down 
to the program within the Department of Labor and their 
Veterans Employment and Training Services Program, under DOL 
they are just not receiving the attention that they should, and 
that is kind of why I think programs like Operation New Uniform 
and other community programs that already exist that are 
successful and have a proven track record should be supported.
    What do you think within the Department of Labor we need to 
try and influence to get that attention that they need from 
DOL?
    Mr. Hubbard. Well, sir, you have been obviously a leader on 
this issue and, you know, of course we appreciate that. To 
highlight some of the successes that have been had I think is 
hugely important. It is not always negative stereotypes and 
things that we need to focus on, but sometimes the positive 
things that are happening and DOL VETS is a perfect example of 
that. They have an exceptional program, their team is really on 
point, and to highlight some of that success I think is 
important.
    I would like to hopefully work with the Secretary of the 
Department of Labor to highlight that program as much as 
possible and ideally work to coordinate the program with also 
the Department of Veterans Affairs, Department of Education, 
and certainly DoD I believe is important in that equation.
    Mr. Rutherford. Okay. And dealing with Veterans Armed for 
Success Act, 3965, which I have introduced, from a TAP's 
standpoint, do you have any suggestions that we should be 
looking at on that bill or----
    Mr. Hubbard. Well, sir, we were very excited to see the 
bill. We thought, if anything, it should be expanded to include 
additional education counseling. The Department of Education 
has several programs that provides counselors to first-
generation college students, we believe perhaps providing some 
funding for programs like that would be good. But the concept 
in and of itself we think is excellent.
    Mr. Rutherford. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Arrington. The gentleman yields back and we would like 
to now yield 5 minutes to the gentleman from California, Mr. 
Correa.
    Mr. Correa. I'll reserve my comments for now, sir.
    Mr. Arrington. Do you want to yield your time?
    Mr. Correa. Yes.
    Mr. Arrington. Okay, the gentleman yields back. And now we 
will yield 5 minutes to Mr. Banks for questions.
    Mr. Banks. Thank you, Mr. Chairman.
    As my colleague Mr. Rutherford said, this is a great 
portfolio of a number of pieces of legislation that are 
exciting to provide for our veteran population. Just a few 
quick questions.
    First of all, Mr. Kamin, I was struck on page 5 of your 
written testimony you refer to the GI Bill Apprenticeship 
Program as a, quote, ``flawed program.'' I wonder if you can 
elaborate on that and tell us what--I mean, you suggest that we 
should quit marketing it, we can't do a lot to improve it, but 
what are The American Legion's thoughts on ways that we can 
salvage a flawed program?
    Mr. Kamin. Thank you for your question, sir.
    And to elaborate on that, I would go back to the original 
GAO report, and when you parse through the details, there are a 
couple of numbers and a couple of surveys that stand out. It 
listed that 11 to 15 employers of apprenticeship sponsors said 
the process was burdensome and inefficient. When they surveyed 
the students, they said 66 out of the 156 veterans received 
benefits late. And when I first heard that, it seems troubling, 
but I was more upset when I learned that late is considered 30 
days after the fact.
    And when I talked to an employer who was running the 
program, I said, well, when do people normally receive the 
benefits? When I was at school, you would expect it within 72 
hours of the first month. And she said that she had 500 
apprentices and could say that it was pure scattershot, she 
could not guarantee whether it would be on the 2nd of the month 
or the 28th of the month.
    So if I am a veteran going into an apprenticeship program 
and I am trying to match my GI Bill payment up with rents, I am 
going to be put in a tough situation under the current system, 
and that all goes back to the fact that it is still run on 
paper. And as long as we are still relying on fax machines, 
which was also written in the report that many employers would 
have to send three or four times to get it certified with 
excuses such as we ran out of paper, when we were hear that as 
the problem, as the holdup for benefits, we think that it is an 
issue that needs to be looked at.
    So, again, it can be a beautiful program, but I think if we 
are looking at why more companies haven't engaged in it, you 
can look at some facts for how the companies are using it right 
now and come up with some very clear answers.
    Mr. Banks. So in addition to H.R. 3949, what additional 
changes need to be made to improve and streamline the program 
so that we would no longer refer to it as a flawed program?
    Mr. Kamin. Well, to be forthright, we are still exploring 
the solutions and we are still talking to employers over what 
exactly the solutions could be.
    The short answer is that having apprenticeships be 
incorporated into the VA-ONCE system would be the solution for 
this. That would also be, I can only imagine, the problems and 
the reasons that that hasn't already happened. So I don't want 
to take anything away from VA when it comes to the complexity 
of that.
    In addition, there is also a burden over signatures for 
apprentices which they need to calculate hours every month. So 
if I am an apprentice and I am a truck driver, which there are 
a lot of shipping companies who use this, I have to take 
across, even if I am a thousand miles away, to fill out an hour 
sheet, fax it in or scan it in, if I have a high-quality 
scanner, to whatever industry representative I have, and they 
take that signature and then incorporate it with theirs.
    So the dual-signature process we see is overly burdensome, 
which I think Mr. Wescott also alluded to in his testimony, and 
just by simple industry standards, the certifying official 
empowering them to manage the hours would be a way to supply it 
as well.
    Mr. Banks. Okay, thank you.
    General Worley, with regards to the provision for pre-
apprenticeship programs in Representative McSally's H.R. 3018, 
can you elaborate on situations where you have seen veterans 
who are seeking this type of training?
    General Worley. Congressman, I can't really elaborate on 
that, because we don't have those programs today and, to my 
knowledge, at least my personal knowledge, I have not heard of 
people seeking pre-apprenticeships per se. But I do agree that 
there may be opportunity out there and, unfortunately, we 
didn't have the chance to do the costs and get the views 
finalized for this hearing. We will provide those as soon as 
possible after the hearing.
    Mr. Banks. Mr. Hubbard, can you elaborate on interest?
    Mr. Hubbard. Thank you for the question. We haven't seen 
any explicit interest in pre-apprenticeship programs. As it 
exists, the GI Bill doesn't offer this for even higher 
education as an opportunity. I think ultimately the percentage 
of folks who are using apprenticeships, that is not the bulk of 
the GI Bill. The bulk are going to school and getting a degree 
there, so that is not typically something that we see.
    Mr. Banks. Thank you and I yield back.
    Mr. Arrington. The gentleman yields back.
    Now we will yield 5 minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    General Worley, do you have any suggestions for how we can 
ensure the provision in the flight school loophole that allows 
benefits to be used for a private pilot's license goes strictly 
towards supporting the veteran's career instead of for instance 
their hobby, do you have any suggestions about that?
    General Worley. Well, we would be happy to work with the 
Committee on language that would do that, if the intent was to 
have it strictly tied to a degree program and not to be 
avocational in nature.
    Congressman, the fact of the matter is, people could use 
any of the current GI Bill benefits with a stated intent of 
completing a degree, but only with their real intent of 
completing a few of a particular type of course. So you will 
never weed out all of that, but the way the language is in the 
bill today someone could just go get their private pilot's 
license and stop right there and just use it recreationally as 
opposed to for a job.
    Mr. Takano. Well, of course I agree that it is a benefit 
they have earned through their service. I don't want to suggest 
that there is a way for us to say that veterans can only use 
their benefits only for gainful employment, I mean, they can 
use their benefits for what they want, but I do think we do 
have to stay within the bounds of what is sustainable.
    And I appreciate that history from The American Legion 
about the World War II GI Bill and the questions that arose 
afterwards, that was very instructive.
    General Worley, another question. If there is a safeguard 
in place for accelerated payments such as limiting their use 
only in the case of programs that are 18-month or shorter, 
would VA support accelerated payments?
    General Worley. I would have to take that back, Congressman 
Takano, just to be able to look at the specific recommendation. 
As I mentioned, we don't support the accelerated payments for 
really two key reasons: one, you are burning twice the 
entitlement and, if you are in a 4-year degree program, taking 
accelerated payments will certainly burn your entitlement much 
quicker; and, secondly, the way the payment scheme is laid out 
in the language, it is not tied to the actual cost per se.
    So you could get double the payment. If your tuition fees 
for example were 18,000, you would get double that for a 4-
month semester, and that is not tied to anything and you are 
going to burn 8 months of entitlement. Conversely, if your 
costs are more than the private cap, you would get double the 
cap and you would still be short.
    So that is the reason the VA opposes the accelerated 
payments as it is prescribed right now.
    Mr. Takano. All right. Well, thank you.
    I just want to say, Mr. Chairman, that we dealt with this 
flight school loophole in previous legislation in a bipartisan 
manner, both sides recognized the unsustainability, I am 
disappointed that the Senate took it out. I am very pleased 
that we have veteran's service organizations with tremendous 
integrity and a farsightedness to understand that we have got 
to have a GI Bill that is sustainable, and we simply cannot 
sustain this kind of expense. And I am very proud to be 
associated with this Committee's work and also your leadership 
on this issue.
    Mr. Hubbard, I want to give you a little more time for the 
benefit of--well, I don't want to sound patronizing, but Mr. 
Rutherford has taken an interest in improving the TAP program. 
And I have often thought that we need to not only do work post-
separation, but the real work needs to be done pre-separation 
from the day that the servicemember takes their oath with a 
non-commissioned officer, and more work needs to be done with 
the Department of Defense while the servicemember is actually 
in active duty or, you know, in service. Do you have any more 
thoughts on how we can improve TAP in that regard?
    Mr. Hubbard. Thank you for the question, Congressman. I 
think ultimately a lot of the work that happens in TAP is more 
of an orientation. When you enter a college program, typically 
you get an orientation to the campus, they point you where the 
key buildings are and where to find things. You are not 
expected to complete a degree in orientation; it is just that, 
it orients you to the campus. Very similarly, I believe that 
TAP ultimately needs to be re-framed in that same thought 
process, it is an orientation to resources, and to expect that 
individuals would learn and understand everything that they 
need to know in that 2-week period, it is just not possible.
    And so I believe, ultimately, between the Department of 
Defense as the starting point and then into work with the VA, 
there is a lot of conversation to be had about what that 
relationship looks like, and certainly pulling in also the 
Department of Labor, as well as the Department of Education, to 
ensure that they are all coordinated. I don't believe that that 
is the case currently, although I do know that there are 
efforts to begin those discussions and we are fully supportive 
of that.
    Mr. Takano. Yes. Well, thank you very much.
    My time is up and I yield back.
    Mr. Arrington. The gentleman yields back. I yield myself 5 
minutes for questions.
    Let me follow up on what my colleague Mr. Banks was 
referencing in your remarks, Mr. Kamin, about the flaws of the 
apprenticeship program. I think there are lots of programs that 
are flawed in one way or the other throughout the government 
and I think the question is, is it fundamentally flawed and 
where we need to scrap it, save some taxpayer money and save 
time and frustration on the part of the customer, in this case 
the veteran, or do we fix it and just make it work.
    My understanding is the apprenticeship programs, the 
outcome on employment rate is very good, it is 91 percent, that 
is my understanding, and the average annual salary for someone 
going through an apprenticeship program is $60,000. So it seems 
like the merit is there, if you can make the program work, but 
sometimes I think there are a hundred ways that the Federal 
Government can make a program not work. But I know General 
Worley is committed to that. It sounds like a pretty 
straightforward fix, just modernize the administrative process, 
and it sounds like that is not an act of Congress, that is an 
act of the administration and the leadership.
    So, General Worley, would you like to comment on that? Can 
we fix this?
    General Worley. Thank you, Mr. Chairman.
    We have in fact moved significantly with respect to 
implementing the recommendations of the GAO report that was 
referred to. In fact, today if you--well, first of all, let me 
start with the approval process. This happened about 2 years 
ago, as I testified in our last hearing on apprenticeships, 
working with the Department of Labor, the registered 
apprenticeships are deemed approved for GI Bill, it just takes 
a couple of additional pieces of paper so that we know there is 
a certifying official. And when I saw we, I am talking about 
state approving agencies who are the authorities in approving 
these programs in their states, not the VA. So it just takes a 
couple of extra pieces of paper to get a program approved in a 
state.
    With respect to the initial enrollment or the initial entry 
into an apprenticeship, that is modernized today by VA- ONCE. 
So someone can go into the VA-ONCE system, just like if you are 
at an IHL and submit someone for their apprenticeship and 
establish them in our system as in an apprenticeship program at 
a particular employer.
    What we have done with respect to the monthly certification 
of the hours worked is, as an interim step, we can do that 
through our GI Bill Web site. There's an ask-question setup, 
you have to set up an account, and the certifying official can 
submit the hours worked through that. We are very close to 
putting those monthly certifications into the VA-ONCE system 
with the signatures on file. So the certifying official will 
have the student's signature on file and it will make that 
process, the dual-signature process that Mr. Kamin referred to, 
which is a legal requirement, by the way, it is a statutory 
requirement, it will still fulfill that requirement, only do it 
in an electronic manner.
    So we are making great progress and, as I testified last 
time, we are still trying to, we are still working and should 
in the not-too-distant future have our own assessment of 
outcomes for those beneficiaries in OJT and apprenticeship 
programs.
    Mr. Arrington. Thank you, Mr. Worley.
    I think this would be with you or Mr. London, my next 
question about the Administrative Procedures Act and 
understanding that that is, to me as a former regulator at the 
FDIC, an important part of the process for public input, make 
sure the stakeholders know what is coming down the pike, and 
that all stakeholders have some input in the process and in the 
final outcome. And I have seen a lot of good intentions gone 
wrong in the marketplace and have major unintended consequences 
in the name of solving a consumer protection challenge or, in 
this case, predatory practices. I am talking about the VA Home 
Loan Program and being exempt from that.
    What practices, predatory practices or other consumer 
protection issues, could you identify as things that you 
couldn't otherwise get to without the exemption from this 
administrative process? And, again, I am assuming that is you, 
Mr. London.
    Mr. London. Yes. Thank you for the question, Mr. Chairman. 
I would say that, you know, from a statutory standpoint, VA has 
brought authority to address issues. However, when we have to 
make substantive interpretations of the statute, we are subject 
to the Administrative Procedure Act, and when there are 
emergent issues that have to be addressed, sometimes the APA or 
the Administrative Procedure Act can be unduly burdensome. From 
my personal experience in my 13 years in VA, on average it has 
taken us some 18 to 24 months or sometimes more to issue a 
formal rulemaking. And when there is clear, tangible, empirical 
evidence that things that need to be addressed and there is an 
agreement across all stakeholders to go through that formal 
process when there is agreement is sometimes unnecessary.
    Mr. Arrington. I am out of time. I am going to ask my 
colleagues if they have further comments or questions. Oh, Mr. 
Correa, I apologize. We will go back to you, Mr. Correa, and I 
yield 5 minutes for questions or comments.
    Mr. Correa. Thank you, Mr. Chairman. I just wanted to 
follow up on some of your comments, which are on the building 
trades, the apprenticeship programs.
    The President has announced a trillion-dollar 
infrastructure project for this country. The State of 
California, where I am from, is about to undertake a major 
infrastructure from building new roads, highways, so on and so 
forth. So I began to see that demand is there for some of these 
building trades, the apprenticeship programs. And a lot of the 
local bonds that will be used for matching funds with these 
programs are actually putting in either local hire or hire a 
veteran kind of requirements.
    And so listening to our Chairman here, I am very interested 
in, you know, making sure that our apprenticeship programs are 
working, whether it is state jurisdiction, Federal jurisdiction 
or local, I want to make sure that we are working to make sure 
that those obstacles are put to the side, make sure that our 
veterans are connected to those jobs, those apprenticeship 
jobs, so that, you know, as these jobs begin to develop and 
they are going to be coming around real fast, that our veterans 
have the first shot at those good-paying jobs.
    So, you know, I would ask you if there is any duplication, 
if there is any update in terms of codes, anything we need to 
do to make sure that the veterans are front and center when it 
comes to these jobs, that that is what they are going to be, 
front and center.
    That's more of a question as opposed to a comment. If you 
can comment, please, to the panel?
    Mr. Kamin. Yes, sir. While I agree 100 percent and we do 
praise the Administration's spotlighting this issue, I think 
that it can affect the country in ways that are above what we 
can possibly measure when we look at this model and this 
approach.
    And it is interesting to see the way they function now. I 
actually trained a Seamen's International Union training 
facility in Maryland and it looked to me like a small college 
campus where they are going, they are learning nautical 
expertise in the classroom, they are getting training on fire 
protection, they are hitting the sea and learning stuff there, 
and it was so far removed from what the initial perception is 
about learning how to use a hammer to hit a nail. In addition 
to that, they would leave being able seamen with a salary 
starting at $8,000 a month for an average age of 19 to 20 years 
old for the people engaged.
    What was most striking about that, though, was when I asked 
where people were from, the answers I got were Baltimore, 
Norfolk, Houston, Baltimore. They were all shipping towns. And 
that is where you see that the outreach isn't across the 
country, it is with traditional industries and traditional 
people living there.
    So I don't mean to discount promoting apprenticeship and 
the role that can play, GI Bill or not, because it does have 
the potential, if properly endorsed by the country, to do great 
things.
    Mr. Correa. If I may, Mr. Chairman, I want to say that I 
still believe that the best thing that we can do for veterans 
is to give them a job, and to give them a good-paying, middle 
class job is what we need to do. So I think this is one of 
those areas that the jobs are going to be begging really fast.
    So however we can assist you, whatever legislation you 
need, we would love to hear from you. Thank you very much.
    Mr. Chair, I yield the remainder of my time.
    Mr. Arrington. The gentleman from California yields back.
    I would just open it up to my colleagues for any further 
questions or comments.
    Mr. Rutherford, I yield 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Kamin, you explained I thought very well about TAP 
being an orientation program. And part of the concern that I 
have had with TAP over the years that I have known about it is 
the fact that it can happen months before the military 
personnel even retires; is that correct?
    Mr. Kamin. Yes, sir, that is correct. It is a mandatory 
course, but you can schedule it up to----
    Mr. Rutherford. Six months?
    Mr. Kamin. Six months prior.
    Mr. Rutherford. Okay. And that is a long time for that kind 
of information, it gets lost, you know. Would you see any value 
in moving TAP to, you know, 3 weeks before your departure? And 
I don't know what burdens that might place on the military 
branches. Do you have any feel for that?
    Mr. Kamin. Yes, sir. Well, I can tell you I went through 
TAP twice, the first time in 2008, the second time in 2010, and 
I believe even by 2010 it was within that 3-week requirement.
    Mr. Rutherford. Oh, it was?
    Mr. Kamin. Yes. So that is the way it used to be. And the 
first time I had just gotten back, redeployed from Iraq, and I 
was in no place to be retaining any of that information and it 
just felt like a mandatory course.
    And I think that is to Mr. Hubbard's point that a lot--that 
you could have a pitch-perfect program, but if you don't have 
the attention span----
    Mr. Rutherford. Right.
    Mr. Kamin. --it is not going to count for anything.
    So I think you are 100-percent right in terms of finding 
the best time for a servicemember to take it that fits their 
needs. We have considered is it possible to elect to take a 
TAPs course after you get your honorable discharge. If you say 
6 months out, oh, geez, my initial thought didn't pan out in 
terms of a job, I would really like to go to TAP to learn, 
ultimately that presents a lot of complexity, because if I, you 
know, ETS out of Quantico and then all of a sudden I am in 
Washington State, who is taking care of my TAP? So we do see 
issues with that.
    I would be remiss if I didn't also mention the Skills 
Bridge Initiative that is happening in the Army, which is 
actually--and we have to fight with base commanders and with 
battalion commanders about this, but the idea of putting a 
soldier on TDY orders who is within an 18-month interval of 
leaving to get apprenticeship-like training. So Microsoft is a 
huge cyber-training program. So if a company, I am talking 
about a military Army company, identifies a high-speed soldier 
is interested, they can put them on orders to participate in 
the Skill Bridge Program. When he Estes, he will have that job 
waiting for him at Microsoft.
    So those are these innovative, new, very 2015-and-above 
approaches that we are still exploring, but there is a lot of 
that----
    Mr. Rutherford. That is very encouraging. Thank you for 
that.
    Mr. Hubbard, and I don't want to try to speak for 
Congresswoman McSally and I am not really sure on this pre-
apprentice bill exactly what program she is talking about 
either, but I do know that in many apprentice programs, in fact 
I ran a training center for law enforcement at one time and 
there are certain entry requirements like the MAPS test, 
Measures of Academic Progress, and TABE, the Test for Adult 
Basic Education, and those are prerequisites to get into an 
apprentice program.
    Now, I also know that those tests come with costs. And then 
if you fail a portion of that test, there are remediation's 
that are available for the individual, which also some cost 
attached to it. And just trying to think about what Member 
McSally could be referring to, I can certainly see how being 
able to use GI Bill dollars to pay for MAPS testing, TABE 
testing, and remediation could certainly be a big benefit, 
because you may not be able to get into the apprentice program 
without those qualifying tests.
    Can you speak to that?
    Mr. Hubbard. I can, sir, and thank you for the question.
    To start off with, with the research that we did under the 
National Veteran Education Success Tracker, or NVEST, we found 
some interesting things, specifically as it relates to time to 
degree. Individuals were actually preserving their benefit and 
oftentimes to ensure that they could use it for, say, a 
bachelor's and a master's degree. To do that, what they were 
doing is taking classes at community colleges to knock out 
their associate's degree early on. I think a model very similar 
to that makes more sense for apprenticeships. If this highly 
valuable benefit is expended early on, that is time that you 
lose on the back end for potentially great programs that might 
take a little bit longer.
    And so to preserve this benefit for as long as possible 
given that it is a finite amount of time, we believe that that 
makes more sense.
    Mr. Rutherford. Okay. Thank you very much.
    And I think particularly in light of, you know, Mr. 
Correa's comments about the upcoming, hopefully, transportation 
and infrastructure building that is going to be going on, we 
certainly need to have folks who are able to get into those 
programs as well.
    Mr. Chairman, I yield back.
    Mr. Arrington. The gentleman yields back. And I yield 5 
minutes to Mr. Takano for further questions.
    Mr. Takano. Of course, Mr. Hubbard, I am interested in how 
we can encourage servicemembers to get remediation done before 
they separate as a strategy, and that is more what I was trying 
to refer to Mr. Rutherford. As far as how we can improve 
transition I think is really going back to the moment of 
enlistment and assessing the servicemember and assessing their 
interests, and being able to set an education plan so that they 
are ready on day one of their separation. There is none of this 
inefficiency of having to pay for these things out of the GI 
Bill.
    And what is more is I think we can encourage them to use 
tuition assistance in the military. So a very strategic, 
focused use of tuition assistance while they are in the 
military. They need to be accountable to some educational 
goals, because we recruit them based on their educational 
goals. That is a huge recruitment tool.
    I think that the GI Bill rings hollow when they leave the 
military really unprepared to use it well or they use it very 
inefficiently. And I am glad to see that so many of our 
veterans are strategically saying, well, let's not use up these 
benefits right away. And by the way, that takes a lot of 
counseling too, to be able to get the veteran to see that.
    And, Mr. Arrington, we have been talking so much about the 
marketing, the heavy marketing that gets done by some 
unscrupulous for-profits and they take advantage of that lack 
of sophistication, that lack of market intelligence about how 
we consume higher ED, and that I think is going to take a lot 
more effort on the front end while they are in service, while 
they are active duty. And those are my thoughts.
    Mr. Kamin, I am interested in this Microsoft, how long is 
that Microsoft program? How much training does it require? And 
they are doing this while they are still in service?
    Mr. Kamin. Yes, sir. It is their MSC, Microsoft Skills--I'm 
sorry, I can get your office the exact program----
    Mr. Takano. Yes.
    Mr. Kamin. --and I believe it is 6 weeks long. The Skill 
Bridge Initiative is authorized for up to 3 months, but they 
found out real quick that that is too much time for a company 
commander to put their soldier out to learn. So there are 
companies that are engaged with this program and that includes 
a lot of the International Brotherhood of Teamsters, a lot of 
shipping companies, and they are just now moving into the cyber 
sector, are really trying to tailor the time towards what they 
are discovering the military to provide them.
    Mr. Takano. And who would pay, who pays for this training? 
Does Microsoft pay for the training?
    Mr. Kamin. Microsoft would pay for the training and they 
would still be collecting their military salary.
    Mr. Takano. Is there any way--I mean, this sort of thing I 
think is really interesting to explore, because also I think 
there may be a role for tuition assistance, you know, there may 
be some cost sharing there, right?
    I mean, I think it is a legitimate--if it is training, it 
is legitimate, but we have to kind of square that with the 
military mission as well. But I think we also need to enlarge 
this idea of what the military mission is. We are recruiting a 
lot more people that need more skills, the military needs 
higher cognitive abilities.
    So I think we ought to be thinking about how tuition 
assistance could be used, how we set those educational goals, 
how we get the servicemembers aware of any deficiency in skills 
that they need, and get those taken care of. And they should be 
held accountable to those goals, like anything else, and by the 
time they leave we have less taxpayer money being wasted, we 
have, you know, far less--even the suicide stuff I think is 
partly driven by this lack of ability to kind of make that 
transition, you know, well. But we would need to work I think 
more closely with the armed services folks, because that is 
where some of the changes need to happen.
    Mr. Arrington. Yield back. I appreciate the gentleman from 
California's thoughtful comments and his engagement at the 
level of detail that you are, it just reminds me of just how 
committed you are to this and to serving our veterans.
    And I want to commend before we close our colleague Mr. 
Rutherford for putting forth a proposal to enhance and expand 
the Transition Assistance Program and I think it is a great 
piece of legislation. And we are going to have a markup I think 
at some point in the near future. I will also remind folks that 
we will have a TAP hearing on November the 8th, and so we can 
all look forward to that.
    I only have one last question and then we will close it 
out. On the H.R. 815, where we would eliminate the home loan 
cap, how many veterans would benefit if you took--what is the 
cap today, the loan limit, and then how many, do we know how 
many veterans would benefit today if that cap were removed, 
that limit we are taking off?
    Mr. London?
    Mr. London. Yes. Thank you for that question.
    So generally speaking, the cap is $424,100. That represents 
92 percent of the counties in the United States. In some cases 
like in California and Florida, you can go a little bit higher. 
But we ran some data off of the fiscal year that just closed, 
2017, and 35,000 veterans received a VA loan above the 
conforming loan limit. So essentially those veterans had to put 
down 25 percent of the difference of their loan amount and the 
limit in their county to enjoy a VA home loan.
    Mr. Arrington. And this is an earned benefit and I know it 
gives greater exposure to the Federal Government, but we would 
look for an offset if we move forward on legislation like this, 
correct? I am hearing a yes. I would expect we would have an 
offset. But I think it is an earned benefit and I can 
appreciate why we wouldn't want to penalize, especially in some 
of these markets like the market here in Washington, New York 
and other places.
    So with that, if there are no further questions or 
comments, I just want to thank everybody for being here today 
and for their to a very good discussion.
    And I want to announce that the Subcommittee is tentatively 
scheduled to hold a markup on some or all of these proposed 
pieces of legislation on October 25th.
    I ask unanimous consent that written statements from 
Representative of New York and the Helicopter Association 
International be included in the hearing record.
    Without objection, so ordered.
    Mr. Arrington. Finally, I ask unanimous consent that all 
Members have five legislative days to revise and extend their 
remarks, and include extraneous material on any of the bills 
under consideration for this afternoon.
    With no objection, so ordered.
    This hearing is now adjourned.

    [Whereupon, at 3:21 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

               Prepared Statement of Honorable Rutherford
    Chairman Arrington, Ranking Member O'Rourke, fellow members of the 
Subcommittee - thank you for the opportunity to speak on behalf of my 
legislation, the Veterans Armed for Success Act.
    In my district in Northeast Florida and on my time serving on this 
Committee, I have heard how companies prefer to hire veterans for many 
reasons. They are responsible, responsive, and hard-working. Their 
skills translate well into many fields. In short, veterans get the job 
done right. Yet, many veterans I have met feel frustrated with their 
post-service career opportunities and often do not know how to 
translate their learned skills into the job market.
    There are few things more important to the quality of life for our 
nation's veterans than transitioning into stable, long-term employment. 
It creates economically prosperous families; it builds our local 
communities; and of extreme importance, it improves the mental health 
for many veterans.
    In response to these growing needs of veterans and their families 
in our area, Operation New Uniform in my home city of Jacksonville was 
created. With large Navy, Marine Corps, and Florida Guard installations 
in my district, thousands of active duty personnel and 150,000 veterans 
call Northeast Florida home.
    When you match this population with the huge corporate interest in 
Jacksonville, ONU has successfully matched these veterans with 
companies looking to hire veterans. Through their skills-based learning 
and training, 96% of veterans who have gone through their program have 
found meaningful careers within four months of completing the program. 
I have spoken at an ONU graduation and seen firsthand how effective 
this program is. It has been a huge win for both veterans and Northeast 
Florida businesses. While the group has been hugely successful, ONU is 
funded through private donations and, unfortunately, they have had to 
turn away many veterans who apply for the program because they do not 
have enough resources.
    When I first met with the group, I was surprised to hear that, 
currently, no federal grant program exists for these organizations. In 
looking further into the issue, I learned that while the DOD Transition 
Assistance Program and efforts at the Department of Labor have worked 
to meet veterans' needs, there needs to be supplemental, off base 
programs for those who need further assistance in finding employment. 
ONU is just one example of the many organizations that VA, DOD, and DOL 
can work with more closely to ensure that the programs and resources 
our veterans receive are directly leading to long term careers.
    My legislation will create a federal grant-matching program to 
encourage more organizations to set our veterans up for success, will 
shore up our commitment to getting resources to veterans in need of 
further assistance, and will also gauge the nationwide needs for 
programs like ONU.
    In closing, I would like to thank the Chairman, the Ranking Member, 
my fellow Congressman from Jacksonville, Al Lawson, for introducing 
this bill with me, as well as my colleagues on the Subcommittee and the 
Subcommittee staff for their commitment to this and other bills under 
consideration today. Thank you, Mr. Chairman. I yield back.

                                 <F-dash>
                  Prepared Statement of Rep. Jim Himes
``H.R. 3634, the Securing Electronic Records for Veteran's Ease (SERVE) 
                                 Act''
    Thank you Chairman Arrington, Ranking Member O'Rourke and 
distinguished members of the subcommittee for the opportunity to 
testify today on H.R. 3634, the Securing Electronic Records for 
Veteran's Ease, or SERVE Act. I would also like to thank my 
distinguished colleagues who have cosponsored this legislation 
including, Rep. Coffman, Rep. Holmes Norton, Rep. Crowley and Rep. 
Esty.
    Veterans and their families face real challenges when they 
transition to civilian life. We have an important responsibility to do 
what we can to help. Finding housing - a roof over their heads - should 
not be an ordeal, especially if it is caused by difficulties in showing 
the stipend that veterans get from Uncle Sam.
    In conversations with student veterans throughout my district, 
proof of income for housing kept coming up as a big challenge. Nicholas 
Quinzi, a Marine and founder of the Student Veterans Club at Sacred 
Heart University, told my office that if he had a wish list of things 
to make his veteran experience better, the number one item would be 
fixing the lack of verification for the monthly housing stipend.
    ``I am a full-time student,'' he said. ``I can't really have a 
full-time job while taking 5 or 6 classes a semester as well as summer 
classes, so my income isn't really `income,' which means there is no 
way of procuring a house. Even attempting to rent is a nightmare.''
    The fact that Nicholas, and many veterans like him, have no proof 
of income that a property management firm could consider when weighing 
credit worthiness and income qualifications is silly.
    Here's the commonsense fix: H.R. 3634 would require the Department 
of Veteran Affairs make documentation of Post 9/11 GI Bill monthly 
housing stipend accessible and available online. Student veterans will 
use this documentation to provide needed verification to housing 
agents, leasing companies, apartment managers, and landlords.
    This legislation could have a big effect. Currently there are 
approximately 1.1 million students using the Post 9/11 GI Bill. Even if 
a fraction of those veterans have had an issue with obtaining housing 
because of this issue, that would mean tens of thousands of student 
veterans and their beneficiaries that would have one less things to 
worry about if this bill were to become law.
    I appreciate the VA's attention to this issue, and understand that 
they support the intent of the bill but feel that the goals of the 
legislation been met with the availability of a statement of benefits. 
Unfortunately, the statement of benefits does not solve the problem. 
Not all authorized Post 9/11 GI Bill beneficiaries have access to the 
statement of benefits on Vets.gov and the statement is not always 
accepted as proof of income for receipt of the housing stipend. The 
statement of benefits also includes personal data and information that 
veterans may not wish to share.
    An official form, accessible on the e-benefits portal verifying the 
benefit is necessary. This functionality already exists for civil 
service preference, commissary and exchange privileges, proof of 
service cards and VA compensation and pension benefit verification.
    In closing, I would like to thank the subcommittee for its 
consideration of the Securing Electronic Records for Veteran's Ease Act 
and I look forward to working with the members of the committee to 
continue to support our student veterans.

                                 <F-dash>
             Prepared Statement of Honorable Martha McSally

10.11.17 Testimony re: H.R. 3018, Veterans' Entry to Apprenticeship Act 
            to the HVAC Subcommittee on Economic Opportunity
    Subcommittee Chairman Arrington, Ranking Member O'Rourke, and 
members of the subcommittee on Economic Opportunity: thank you for 
having me here today to speak about an issue of immense importance to 
our servicemembers: the transition from service life to civilian life. 
Having served in the United States Air Force myself for 26 years, I 
know how difficult it can be to navigate the job search as a private 
citizen. My bill, the Veterans' Entry to Apprenticeship Act (H.R. 
3018), will ease this process for our outgoing servicemembers by 
allowing them to use the education benefits they have already earned to 
participate in pre-apprenticeship programs that are proven to increase 
the likelihood of gainful employment. At a time when our veterans are 
seeing daunting rates of underemployment and our national skills-based 
workforce is shrinking, we must find creative solutions to bolster the 
resources we are offering our veterans.
    The Bureau of Labor Statistics estimates that, in 2016, the annual 
unemployment rate for post-9/11 veterans was 5.1 percent, compared to 
the national average of about 4.6 percent. \1\ Although we have seen 
unemployment rates decrease veterans overall since 2011, their rate of 
underemployment is actually increasing. In fact, in 2016, more than 
27,000 veterans were getting help from grantees - a 23 percent growth 
over 2015. \2\ In other words, while more veterans are finding jobs, 
they aren't finding the right jobs that allow them to take care of 
their families, advance their careers, or find new career paths. Many 
veterans today have to work two or even three jobs just to make ends 
meet.
---------------------------------------------------------------------------
    \1\ BLS, 2016
    \2\ Military Times, March 2017
---------------------------------------------------------------------------
    What's worse is that we know that businesses and organizations want 
to hire veterans. According to a 2016 report by the U.S. Chamber of 
Commerce's Hiring Our Heroes program found that veterans were ranked 
third on employers' list for priority recruitment, behind women and 
candidates with advanced degrees. But while evidence shows that 
businesses across the country want to hire and train veterans, many 
cannot attract untrained veterans to their programs due to basic fees 
the veterans are unable to pay out of pocket after they return from 
service.
    Additionally, our nation is facing a growing shortage of qualified 
skills-based and trade-based workers. According to a study conducted in 
2012, 53 percent of skilled US workers were 45 years or older and 20 
percent were over the age of 55. This shortage is even greater for 
employees in highly technical fields, like cybersecurity.
    It's imperative that we attract a new, younger workforce willing to 
apply themselves in these highly technical fields if we hope to remain 
competitive in the global economy.
    A way to fix this problem is to make it easier for veterans to take 
advantage of apprenticeship programs in skills-based fields. In 
particular, the Department of Labor has endorsed pre-apprenticeship 
programs as a path to helping individuals learn about new careers, 
acquire new, trade-based skills, qualify to meet minimum standards for 
other federal apprenticeship programs, and get a leg-up on 
apprenticeship applications.
    However, currently, GI Bill benefits may not be used to supplement 
the cost of Department of Labor approved pre-apprenticeship training in 
skilled industries. This simply does not make any sense.
    The Veterans' Entry to Apprenticeship Act would remedy this issue 
by requiring the Department of Veterans Affairs to allow post-9/11 GI 
Bill benefits to be used to cover costs of pre-apprenticeship programs 
in addition to apprenticeship programs.
    This is a common sense step that would provide veterans with 
additional resources to acquire new skills, give businesses a cost-
effective path to a younger, willing workforce, and provide a pipeline 
of new workers in highly technical fields for the future workforce.
    With an increasing number of post-9/11 veterans looking to enter 
the workforce and an estimated 453,000 veterans facing unemployment, 
now is the perfect time to encourage our warfighters to pursue careers 
in high-demand occupations. Expanding job training opportunities for 
veterans not only makes sense for our veterans, but is also a win for 
businesses.
    Again, thank you for allowing me to speak on this important issue 
for our veterans and for our national economy. Additionally, I would 
like to thank the 13 other cosponsors, many of which are members of 
this committee, as well as the various outside groups including: the 
National Guard Association of the United States, the Reserve Officers 
Association, the Enlisted Association of the National Guard of the 
United States, the National Roofing Contractors Association, the 
National Association of Home Builders, and the Associated General 
Contractors of America for their support.

                                 <F-dash>
                  Prepared Statement of Hon Ro Khanna
              ``Legislative Hearing on Draft legislation''
    Opening

    <bullet>  Thank you, Chairman Arrington and Ranking Member 
O'Rourke, for holding today's legislative hearing and for inviting me, 
along with several of my House colleagues to testify today.
    <bullet>  I am Congressman Ro Khanna, and I have the honor of 
representing Silicon Valley as part of the Seventeenth Congressional 
District of California.
    <bullet>  Last week, after a few months of meetings and discussions 
with think tanks, companies that offer apprenticeships, veterans 
services organizations, the National Association of State Approving 
Agencies, and members of this committee, including its leadership, I 
introduced H.R. 3949, the Veterans Apprenticeship and Labor Opportunity 
Reform, or VALOR, Act.
    <bullet>  It is bipartisan legislation that will provide veterans 
greater access to apprenticeship training programs following their 
service.
    <bullet>  I want to thank committee and subcommittee staff from 
both sides of the aisle for working with my office in identifying to 
the real problem that companies currently face and helping us develop 
H.R. 3949 that is targeted, yet important.
    <bullet>  I also want to acknowledge the Chairman and Ranking 
Member of this Subcommittee for meeting with me and for being original 
cosponsors of the VALOR Act.
    <bullet>  I'm proud to say that this bill is bicameral in nature, 
as Senators Cotton and Tillis have introduced companion legislation in 
the US Senate as S. 1936.
    <bullet>  Finally, I must thank Joe Westcott, Legislative Director 
at the National Association of State Approving Agencies, for taking a 
chance on a freshman member of Congress and working with us in 
development and endorsement of the VALOR Act. It has been a pleasure to 
get to meet and know Joe and to have his support for this legislation.

    Legislation Itself

    <bullet>  Currently, private employers who offer apprenticeship 
programs in more than one state must register with each state approval 
agency individually.
    <bullet>  This trail of paperwork and burdensome review process 
often discourages employers from opening these apprenticeship programs 
to veterans.
    <bullet>  The VALOR Act would streamline the registration process 
for employers, still allow approval agencies to certify programs, and 
give veterans more opportunities to gain employment through 
apprenticeship programs.
    <bullet>  Apprenticeship programs allow veterans to gain skills 
needed for 21st century jobs.
    <bullet>  Something as simple as paperwork should not stop 
employers from hiring veterans.
    <bullet>  The VALOR Act would remove administrative hurdles and 
offer more apprenticeship to returning veterans.

    Closing

    <bullet>  I appreciate the opportunity to appear before the 
subcommittee today to offer my perspective on this small, but important 
bill.
    <bullet>  I am happy to answer any questions that my colleagues on 
the subcommittee may have.

                                 <F-dash>
                  Prepared Statement of Robert Worley
    Good morning, Chairman Arrington, Ranking Member O'Rourke and 
Members of the Committee. I am pleased to be here today to provide the 
views of the Department of Veterans Affairs (VA) on pending 
legislation. Due to when we received notice of the hearing, and the 
draft bill text on the Administrative Procedures Act (APA), we will 
follow up with the Committee as soon as possible on H.R. 815, H.R. 
3018, and the APA draft bill. With me today is Jeff London, Director, 
Loan Guaranty Service, Veterans Benefits Administration (VBA).

H.R. 3634

    H.R. 3634, the ``Securing Electronic Records for Veterans' Ease Act 
of 2017,'' or the ``SERVE Act of 2017'' would ensure that individuals 
may access documentation verifying the monthly housing stipend paid to 
the individuals under the Post-9/11 Educational Assistance Program 
(Post-9/11 GI Bill). It would add a new subsection (j) to 38 U.S.C. 
Sec.  3313.
    VA supports the intent of the proposed legislation, but notes this 
change would provide access to the same information currently available 
to Veterans through a ``Statement of Benefits'' letter accessible 
through the internet at www.Vets.gov. This letter provides a link to 
the amount of a Veteran's monthly housing stipend and other eligibility 
and entitlement information under the Post-9/11 GI Bill. Presently, the 
``Statement of Benefits'' letter is only available for Veterans. VA is 
in the process of making this letter available to all Post-9/11 GI Bill 
beneficiaries. The implementation date for this functionality has not 
been determined.
    As a technical matter, we note that there is already a subsection 
(j) in section 3313.

H.R. 3949

    The purpose of H.R. 3949 is to provide for the designation of state 
approving agencies for multi-state apprenticeship programs for purposes 
of VA's educational assistance programs.
    This bill proposes to amend section 3672(c)(1) of title 38, U.S.C., 
to designate the state approving agency (SAA) for the state in which 
the headquarters of a multi-state apprenticeship program is located as 
the approving agency for this program. The SAA for the state in which 
the apprenticeship program takes place would be responsible for all 
other purposes.
    The term ``multi-State apprenticeship program'' would be defined as 
a non-Federal apprenticeship program operating in more than one state 
that meets the minimum national program standards developed by DOL.
    VA supports the proposed legislation. Currently, non-Federal 
apprenticeship programs operating in more than one state must request 
approval from the SAA in each state in which it operates. For example, 
if an employer has training establishments in 50 states, it must seek 
separate approval from the SAA in each. This process can be lengthy and 
cumbersome causing some Veterans to miss valuable training 
opportunities. The proposed legislation would allow one SAA to approve 
a multi-state apprenticeship program. However, VA would recommend that 
the phrase ``headquarters of the apprenticeship program'' be further 
defined so as to prevent competing claims of jurisdictional authority 
from multiple SAAs. In addition, DOL recommends the terms ``non-Federal 
apprenticeship program'' and ``minimum national program standards, as 
developed by the Department of Labor'' be further defined in the bill. 
DOL is available to work with the Subcommittee to clarify those terms.
    As a technical matter, we note that this bill would replace 
paragraph (c)(1) of section 3672 with new paragraphs (c)(2)(A) and (B). 
VA notes that section 3672(c)(2) currently exists in title 38, U.S.C., 
and it is unclear how the proposed amendment would impact that 
provision.

H.R. 3965

    This bill gives the Secretary authority to make grants to 
organizations that would provide employment assistance to recently 
transitioned Servicemembers. Recipients of the grant would provide 
resume assistance, interview training, job recruitment training, and 
related services. We would like to note that these services are 
currently provided by Department of Labor (DOL) through a memorandum of 
understanding between our departments, and therefore the intent of this 
bill might best be accomplished by DOL.
    VA does assist eligible Veterans participating in VBA's Vocational 
Rehabilitation and Employment program and the Veterans Health 
Administration's homelessness and compensated work therapy programs 
with these tasks.
    The draft bill authorizes $5,000,000 to carry out this section.

Draft Flight School Bill

    This draft bill would make certain improvements to the use of 
educational assistance provided by VA for flight training programs.
    Section 1(a) of the proposed legislation would amend section 
3034(d) of title 38, U.S.C., to remove the requirement for an 
individual receiving Montgomery GI Bill-Active Duty benefits (or 
chapter 30) to possess a valid private pilot certificate before 
qualifying to receive benefits for flight training. Therefore, 
individuals who do not possess a valid private pilot certificate could 
qualify for flight training under chapter 30. This provision would 
apply to a quarter, semester, or term that begins on or after the date 
of enactment.
    Section 1(b) of the proposed legislation would add a new subsection 
(k) in section 3313 of title 38, U.S.C., which would allow an 
individual receiving Post-9/11 GI Bill benefits to elect to receive 
accelerated payments for tuition and fees for flight training pursued 
at institutions of higher learning when the flight training is a 
requirement for the degree being pursued. The amount of each 
accelerated payment would be equal to twice the amount for tuition and 
fees, otherwise payable to an individual. The amount of monthly 
stipends (i.e., monthly housing allowance, kickers, etc.) would not be 
accelerated. Two months of entitlement would be charged for each 
accelerated payment. This provision would apply to training that begins 
on or after the date of enactment.
    Section 1(c) of the proposed bill would amend subsection (c)(1)(A) 
of section 3313 of title 38, U.S.C. to limit the benefits paid for 
pursuit of flight-related degree programs at public IHLs. First, it 
would limit the amount of tuition and fees payable for a program that 
requires flight training to the same amount per academic year that 
applies to programs at private or foreign IHLs. Second, it would 
prohibit the payment of tuition and fees associated with non-required 
(i.e., elective) flight training. This provision would apply to a 
quarter, semester, or term that begins two years after the date of 
enactment, for individuals currently using chapter 33 benefits. 
Otherwise, this provision would apply to a quarter, semester or term 
that begins on or after the date of enactment.
    Section 1(d) of the bill would further amend section 
3313(c)(1)(A)(ii)(II) of title 38, U.S.C., as added by subsection 
(c)(2)(E) of this bill, to add a new item (cc) that would limit the 
amount of tuition and fees payable for certain programs at IHLs, 
specifically those that involve a contract or agreement with an entity 
(other than another public IHL) to provide a program of education or a 
portion of a program of education, to the same amount per academic year 
that applies to programs at private or foreign institutions. This 
provision would apply to a quarter, semester, or term that begins 2 
years after the date of enactment, for individuals currently using 
chapter 33 benefits. Otherwise, this provision would apply for a 
quarter, semester, or term that begins on or after the date of 
enactment.
    VA supports the intent of section 1(a). However, VA has concerns 
about removing the requirement for individuals to possess a valid 
private pilot certificate as this would allow certain individuals to 
pursue flight training as an avocation versus a vocation. VA notes that 
this provision would also apply to individuals pursuing flight training 
under both chapter 30 and chapter 33, since the same approval criteria 
govern both education programs.
    VA does not support section 1(b). Under this provision, individuals 
would exhaust their entitlement prior to completing their program of 
education. This would specifically impact individuals who elect to 
receive accelerated payments for flight training while pursuing a 
standard 4-year bachelor's degree program. In addition, the amount of 
an accelerated payment could exceed the actual cost of tuition and fees 
charged for any given enrollment period. Consequently, VA could pay 
more funding than required for certain enrollments. In addition, the 
proposed charge against entitlement is confusing since only payments 
associated with tuition and fee charges may be accelerated. These 
payments, however, are paid in a lump sum, not on a monthly basis.
    This section would require VA to make changes to the current rules 
for determining payment amounts that are programmed into the Long Term 
Solution (LTS). LTS is not currently programmed to process accelerated 
payments. VA estimates that it would require one year from the date of 
enactment to make the necessary information technology system changes.
    Lastly, VA supports sections 1(c) and 1(d), which are consistent 
with our FY18 budget and would limit the amount of tuition and fee 
payments for enrollment in flight programs and certain programs at IHLs 
that are a part of a contract agreement with other entities (other than 
another public IHL). VA is concerned about high tuition and fee 
payments for enrollment in degree programs, and especially those 
involving flight training at public IHLs. Education benefit payments 
for flight programs increased tremendously with the implementation of 
Public Law 111-377.
    There has been a significant increase in flight training centers, 
specifically those that offer helicopter training, that have contracted 
with public IHLs to offer flight-related degrees. Sometimes these 
programs charge higher prices than those that would be charged if the 
student had chosen to attend the vocational flight school for the same 
training.
    The proposed legislation would remedy this situation. VA would like 
to note that information technology (IT) changes would also be 
necessary to implement sections 1(c) and (d). VA estimates that it 
would require 1 year from enactment to develop, test, and implement 
this functionality. Manual processing would be needed in the interim.
    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to answering any 
questions the Committee may have.

                                 <F-dash>
                    Prepared Statement of John Kamin
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of the subcommittee; On behalf of our National Commander, 
Denise H. Rohan, and the over 2 million members of The American Legion, 
we thank you for this opportunity to testify regarding The American 
Legion's positions on pending legislation before this committee. 
Established in 1919, and being the largest veteran service organization 
in the United States with a myriad of programs supporting veterans, we 
appreciate the subcommittee focusing on these critical issues that will 
affect veterans and their families.

H.R. 815

    To amend title 38, United States Code, to adjust certain limits on 
the guaranteed amount of a home loan under the home loan program of the 
Department of Veterans Affairs.
    VA's Home Loan Guaranty program has been in effect since 1944 and 
has afforded over 20 million servicemembers and veterans the 
opportunity to purchase homes. The Home Loan programs offer veterans a 
centralized, affordable and accessible method of purchasing homes in 
return for their service to this nation. The program has been so 
successful over past years that not only has the program paid for 
itself, but it has also shown a profit. In addition, statistics 
released by the Mortgage Bankers Association's National Delinquency 
Survey through the years have shown that veterans using VA loans have 
the lowest foreclosure rate in the United \1\States \2\. The home loan 
program has been a tremendous benefit for the military and veteran 
community.
---------------------------------------------------------------------------
    \1\ https://www.va.gov/opa/pressrel/pressrelease.cfm?id=2255
    \2\ https://www.blownmortgage.com/va-loans-lowest-foreclosure-rate/
---------------------------------------------------------------------------
    H.R. 815 would add to this great benefit by allowing the VA 
flexibility to determine the appropriate limit of the veteran's loan 
for those who choose to buy homes in high-income areas. This would give 
a servicemember and/or veteran additional options for finding a home 
through a VA-backed loan. This bill is a commonsense approach to 
providing a meaningful benefit to those who have honorably served 
America. It is the sincere desire of The American Legion to see all 
veterans realize the American dream of owning their own home.
    Through Resolution No. 329: Support Home Loan Guaranty Program, The 
American Legion supports any administrative and/or legislative efforts 
that will improve and strengthen the Loan Guaranty Service's ability to 
serve America's veterans. \3\
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 329 (2016): Support Home 
Loan Guaranty Program.
---------------------------------------------------------------------------
    The American Legion supports H.R. 815.

H.R. 3018: Veterans' Entry to Apprenticeship Act

    To amend title 38, United States Code, to ensure that veterans may 
attend pre-apprenticeship programs using certain educational assistance 
provided by the Secretary of Veterans Affairs, and for other purposes.
    Currently, GI Bill benefits cannot be used to cover the cost of 
Department of Labor approved pre-apprenticeship programs. In certain 
industries, many veterans face financial barriers entering into 
apprenticeship programs because they lack pre-apprenticeship 
credentials and training.
    Pre-apprenticeship programs provide instruction and/or training to 
increase math, literacy, and other vocational and pre-vocational skills 
needed to gain entry into a Registered Apprenticeship program. For 
example, the Robert C. Byrd Institute partners with West Virginia Women 
Work to offer training to women to prepare for machinist and industrial 
apprenticeships. Implementing Registered Apprenticeship and pre-
apprenticeship models that are aligned with the needs of key industry 
sectors creates opportunities to advance veterans who are students, job 
seekers, or workers along the talent pipeline.
    With skilled trade programs expected to grow faster than average as 
a growing economy spurs infrastructure development, The American Legion 
believes it is important that the Post-9/11 GI Bill incorporate this 
training. \4\
---------------------------------------------------------------------------
    \4\ https://www.bls.gov/ooh/construction-and-extraction/home.htm 
Construction and Extraction Occupations, Occupational Outlook Handbook
---------------------------------------------------------------------------
    The Veterans' Entry to Apprenticeship Act would allow veterans to 
use their educational benefits under the GI Bill to attend pre-
apprenticeship programs that are compliant with state standards and 
sponsorships with Registered Apprenticeship Programs. Through 
Resolution No. 318: Ensuring the Quality of Servicemember and Veteran 
Student's Education at Institutions of Higher Education, The American 
Legion supports any legislative or administrative proposal that 
improves the GI Bill. \5\
---------------------------------------------------------------------------
    \5\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education.
---------------------------------------------------------------------------
    The American Legion supports H.R. 3018.

H.R. 3634: SERVE Act of 2017

    To amend title 38, United States Code, to ensure that individuals 
may access documentation verifying the monthly housing stipend paid to 
the individual under the Post-9/11 Educational Assistance Program of 
the Department of Veterans Affairs.
    Many veterans utilizing the Post 9/11 GI Bill do not live in 
dormitories or on-campus housing but instead, find housing in the local 
market. Because many veterans who transfer from the military into 
higher education are generally older, have families, or are not 
comfortable with the dorm lifestyle, the best option is to rent a home 
or apartment on the local market near their institution of higher 
learning. Improvements to the GI Bill Comparison Tool have allowed 
veterans the ability to make informed decisions by viewing their 
estimated basic allowance for housing (BAH) rate in the location they 
are contemplating attending school. However, for purposes of income, 
the veteran has no official verification of their monthly housing 
stipend. This can be burdensome to veterans when having to explain the 
specifics of a government benefit to landlords and rental agencies as a 
reason they should waive a standard component of a rental application.
    H.R. 3634 provides a common sense and zero cost solution that would 
allow documentation to be available to veterans online. This 
documentation would verify the amount of their monthly housing stipend 
the veteran would receive to show proper documentation of benefits.
    Through Resolution No. 318: Ensuring the Quality of Servicemember 
and Veteran Student's Education at Institutions of Higher Education, 
the American Legion supports any legislative or administrative proposal 
that improves the GI Bill. \6\
---------------------------------------------------------------------------
    \6\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education.
---------------------------------------------------------------------------
    The American Legion supports H.R. 3634.

Draft Bill

    To amend title 38, United States Code, to eliminate the 
applicability of certain provisions of the Administrative Procedure Act 
to housing and business loan programs of the Department of Veterans 
Affairs.
    Predatory lending schemes, under the guise of refinancing, have 
plagued veterans and their families for quite some time. These schemes, 
a painful reminder of the harmful practices seen during the housing 
boom, are targeting thousands of veterans and their families 
nationwide. Examples of these exploitations involve chronic refinancing 
that creates large fees for lenders, but leave veteran homeowners in 
dreadful shape financially. Lenders are luring veterans in with lower 
monthly payments and ``official looking'' marketing materials 
resembling DOD documents. Frequently, veterans end up in negative-
equity positions, owing more on their loan balance than their house is 
worth.
    A recent analysis found numerous instances where veterans were 
influenced to shift from a long-term fixed-interest rate to a lower-
rate short-term adjustable in which the principal amount owed to the 
lender jumped by thousands of dollars. \7\ In an average refinancing of 
this type, veterans added $12,000 of debt to reduce their monthly 
payment by $165, which could result in negative equity. \8\
---------------------------------------------------------------------------
    \7\ https://www.washingtonpost.com/realestate/agency-warns-that-
questionable-refinancings-may-be-costing-veterans-big-money/2017/09/25/
00955ff4-a208-11e7-b14f-f41773cd5a14--story.html?utm--
term=.6090a1903d3c
    \8\ Id.
---------------------------------------------------------------------------
    The Administrative Procedure Act (APA) governs the process by which 
federal agencies develop and issue regulations. The APA exempts most 
loan programs from the formal rule making provisions, which includes 
requirements for publishing notices of proposed and final rulemaking in 
the Federal Register, and provides opportunities for the public to 
comment on notices of proposed rulemaking. The APA requires most rules 
to have a 30-day delayed effective date. In addition to setting forth 
rulemaking procedures, the APA addresses other agency actions such as 
issuance of policy statements, licenses, and permits. It also provides 
standards for judicial review if a person has been adversely affected 
or aggrieved by an agency action.
    Title 38, U.S.C. requires the Secretary of VA to issue official 
regulations related to the home loan program, which gives the VA less 
flexibility. For instance, the VA home loan program is unable to react 
swiftly enough to predatory refinancing practices because VA must issue 
formal regulations each time. This draft bill would allow the home loan 
program to create changes without rulemaking, fixing the current law to 
provide the Secretary of VA a greater flexibility to avoid issuing 
regulations related to home loans.
    The goal of enacting this bill would be to ensure that 
servicemembers and veterans have the proper protections from predatory 
lending schemes. The American Legion believes this bill would take a 
positive step towards limiting this kind of scheme that is affecting 
too many of our nation's heroes.
    Through Resolution No. 329: Support Home Loan Guaranty Program, The 
American Legion supports any administrative and/or legislative efforts 
that will improve and strengthen the Loan Guaranty Service's ability to 
serve America's veterans. \9\
---------------------------------------------------------------------------
    \9\ The American Legion Resolution No. 329 (2016): Support Home 
Loan Guaranty Program.
---------------------------------------------------------------------------
    The American Legion supports this draft bill.

Draft Bill

    To amend title 38, United States Code, to provide for the 
designation of State approving agencies for multi-State apprenticeship 
programs for purposes of the educational assistance programs of the 
Department of Veterans Affairs.
    The Post-9/11 GI Bill offers living stipends to nonstudents who 
seek on-the-job training (OJT) or apprenticeships. Their inclusion 
dates back to the original GI Bill, where over 2 million World War II 
veterans utilized this benefit for on-the-job and on-the-farm training. 
Comparatively, the Post-9/11 GI Bill has only had 27,000 veterans, or 
about 2% according to a 2015 GAO report \10\. The report recommended 
that VA improve outreach, ease administrative challenges, and establish 
outcome measures for its OJT and apprenticeship program. \11\
---------------------------------------------------------------------------
    \10\ United States, Government Accountability Office. ``Increasing 
Outreach and Measuring Outcomes Would Improve the Post-9/11 GI Bill On-
the-Job Training and Apprenticeship Programs'' [GAO-16-51]
    \11\ Id.
---------------------------------------------------------------------------
    The American Legion agrees with the GAO's recommendations, but 
advises that administrative challenges must be eased before outreach 
and outcome measures can be conducted. No amount of marketing or 
salesmanship can make up for a flawed program, and initial feedback 
suggests that reforms are needed.
    The American Legion believes it is irresponsible for the Department 
of Veterans Affairs to focus on outreach and outcome measures of the GI 
Bill for apprenticeships while these concerns remain unaddressed. 
Promoting a flawed program has the potential to poison the good will 
that our nation's employers have for servicemembers and veterans, 
accomplishing the exact opposite of the VA's mission to honor America's 
veterans.
    This draft bill is an important first step to addressing the 
problems with Post-9/11 GI Bill Apprenticeship program, by streamlining 
approval for organizations with multi-state apprenticeship programs. 
Under current law, Registered Apprenticeship programs must be approved 
by all of the State Approving Agencies they are operating in order to 
be deemed eligible for GI bill use. This extra step in the process 
clouds the use of these funds for Registered Apprenticeship programs. 
Companies operating in several states can be vulnerable to these 
different interpretations, adding opportunity costs, and financial 
uncertainty. Through designating the state approving agency in which 
the headquarters of the apprenticeship program is located the authority 
for approving all state locations, this effort can be streamlined.
    Through Resolution No. 318: Ensuring the Quality of Servicemember 
and Veteran Student's Education at Institutions of Higher Education, 
the American Legion supports any legislative or administrative proposal 
that improves the GI Bill. \12\
---------------------------------------------------------------------------
    \12\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education.
---------------------------------------------------------------------------
    The American Legion supports this draft bill.

Draft Bill

    To amend title 38, United States Code, to make certain improvements 
to the use of educational assistance provided by the Department of 
Veterans Affairs for flight training programs.
    The American Legion supports measures to improve cost control for 
flight programs offered by colleges and universities. In 2015, The Los 
Angeles Times exposed that some institutions of higher learning had 
instituted extreme costs for flight fees as there are presently no caps 
in place for public schools. \13\ Since that time, increased oversight 
from the Department of Veterans Affairs and State Approving Agencies 
(SAAs) has resulted in lowered overall expenditures for flight training 
to $48.4 million in 2016, from a height of $79.8 million in 2014.
---------------------------------------------------------------------------
    \13\ U.S. taxpayers stuck with the tab as helicopter flight schools 
exploit GI Bill loophole - March 15, 2015 http://www.latimes.com/
nation/la-me-adv-gibill-20150315-story.html#page=1
---------------------------------------------------------------------------
    Among the external factors responsible for this reduction was a 
100% compliance survey conducted by SAAs in 2015 that resulted in 12 
suspensions and withdrawals; largely due to violations of the 85-15 
rule. However, the mandate to micromanage flight programs is 
unsustainable, even as institutions learn to adjust to the requirements 
while hedging veteran credit enrollment. For these reasons The American 
Legion believes that a solution is still necessary to ensure that the 
Post-9/11 GI Bill and the Harry W. Colmery GI Bill remain an honorable 
investment of public dollars.
    This obligation must be measured with the responsibility that our 
nation has to veterans using the Post-9/11 GI Bill who aspire to 
careers in aviation. Legislation that caps the maximum GI Bill amount 
per year for flight would have the inevitable consequence of 
discouraging pursuit of this vocation, with greater debt incurred by 
veterans and servicemembers who remain committed.
    This draft legislation takes both of these considerations into 
account in language that sets a specific cap and provides the option 
for veterans to elect to spend remaining months of entitlement to 
accelerate payments at a rate of up to twice the amount for tuition and 
fees. As a practical example, suppose a veteran enrolls in a flight 
program costing $45,700 in tuition and fees. This draft bill would cap 
their GI payment at $22,850 (the maximum 2017 amount per private 
schools), leaving them to pay for half. The veteran can then elect to 
have the GI Bill cover the remainder by accelerating his GI Bill 
payments for 12 additional months, covering the full cost of tuition.
    This would appear to alleviate concerns for discouraging pursuit of 
aviation, while putting the choice in the hands of the veteran for how 
to appropriately allocate their GI Bill. The American Legion commends 
the Committee for this measured approach, and is encouraged by the cost 
savings that have been made at aviation programs.
    In order to consider support, The American Legion calls for all 
cost-savings projected by this measure to be returned to VA education 
programs. Absent this, and with no resolutions addressing the 
provisions of the legislation, The American Legion is researching the 
material and working with our membership to determine the course of 
action which best serves veterans.
    The provisions in this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership. With no resolutions addressing 
the provisions of the legislation, The American Legion is researching 
the material and working with our membership to determine the course of 
action that best serves veterans.
    The American Legion has no current position on this Draft Bill and 
will bring this issue to our committee for additional review.

Draft Bill

    To authorize the Secretary of Veterans Affairs to make grants to 
eligible organization for the provision of transition assistance to 
member of the Armed Forces recently separated from active duty service.
    The American Legion supports this bill as drafted because it would 
bolster the services and programs for transitioning servicemembers that 
lead to gainful employment and financial stability. By placing veterans 
in suitable employment, the country benefits from increased income tax 
revenue and reduced unemployment compensation payments. Having adequate 
assistance for transitioning servicemembers is a tremendous value for 
both the transitioning veteran and America.
    The American Legion recognizes that in spite of the employment 
assistance available through already existing resources and platforms, 
many veterans still face difficulties transitioning quickly and 
successfully to the civilian workforce. In fact, unemployment is 
slightly higher among veterans than non-veterans of similar age (25-
34). \14\ A good job is often the difference between a veteran having 
feelings of well-being or worthlessness. Depression, which can often be 
substantially alleviated by having a good job, is recognized as a 
significant contributor to the extraordinary number of suicides, level 
of drug use, and instances of aberrant behavior, which tend to 
disproportionately affect our veteran population.
---------------------------------------------------------------------------
    \14\ https://content.govdelivery.com/attachments/USVAVBA/2017/10/
06/file--attachments/892299/BLS--Employment--Data-----September--
2017.pdf
---------------------------------------------------------------------------
    Furthermore, The American Legion believes that by strengthening 
American veterans, we in turn strengthen America. Approximately 250,000 
servicemembers leave the military each year. Recently separated service 
personnel will seek immediate employment, or increasingly, have chosen 
some form of self-employment.
    Through Resolution No. 70: Improve Transition Assistance Program, 
The American Legion supports helping servicemembers transition to 
civilian life and find gainful employment. \15\
---------------------------------------------------------------------------
    \15\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance Program.
---------------------------------------------------------------------------
    The American Legion supports this draft bill.

Conclusion

    The American Legion thanks this committee for the opportunity to 
explain the position of the over 2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Larry Lohmann, Assistant Director of the Legislative 
Division at The American Legion, at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbb7b7b4b3b6bab5b59bb7bebcb2b4b5f5b4a9bcf5">[email&#160;protected]</a>

                                 <F-dash>
                 Prepared Statement of William Hubbard
                  LEGISLATIVE HEARING ON THE TOPIC OF:
                        ``PENDING LEGISLATION''
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Committee:
    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on legislation pending before this body. With nearly 
1,500 chapters representing over 1.1 million student veterans in 
schools across the country, we are pleased to share the perspective of 
those directly impacted by the subjects before this committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the nation, we place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country, fostering the success of veterans in school is 
paramount to their preparation for productive and impactful lives.
    We will discuss the value and role of apprentice experiences in the 
transition process for some service members, the need to address on-
going challenges associated with flight training programs, and the 
importance of getting the Transition Assistance Program (TAP) right for 
the hundreds of thousands of servicemembers separating from the 
military each year.
    Our National Veteran Education Success Tracker (NVEST) research 
demonstrates that the GI Bill has a high return on investment for 
veterans and the country-a program worth ensuring for all generations 
to come. \1\ As the most recently transitioned generation of veterans, 
student veterans are ambassadors to the all-volunteer force, and 
recognize the value of this long-term investment.
---------------------------------------------------------------------------
    \1\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. (2017). 
National Veteran Education Success Tracker: A report on the academic 
success of student-veterans using the Post-9/11 GI Bill. Washington, 
D.C.
---------------------------------------------------------------------------
    As a higher education organization, our focus is on training and 
education; two proposals before this body are outside of our scope of 
expertise, and we will reserve comment on each, including H.R. 815, To 
amend title 38, United States Code, to adjust certain limits on the 
guaranteed amount of a home loan under the home loan program of the 
Department of Veterans Affairs, and Draft Bill, To amend title 38, 
United States Code, to eliminate the applicability of certain 
provisions of the Administrative Procedure Act to housing and business 
loan programs of the Department of Veterans Affairs.

H.R. 3018, the Veterans' Entry to Apprenticeship Act

    The Post-9/11 GI Bill is primarily used for higher education at two 
and four-year programs, typically for associates and bachelor's 
degrees. Still, a small percentage of GI Bill dollars since 2008 have 
been invested in apprenticeship programs. Though more than half of all 
separating servicemembers go to school after exiting the military, a 
few transitioning servicemembers take the opportunity to pursue 
apprenticeship programs in skilled labor fields, which continue to be a 
component of jobs for veterans as they enter civilian life.
    This bill, the Veterans' Entry to Apprenticeship Act, proposes 
authorizing veterans to use their GI Bill benefits at participating 
pre-apprenticeship programs compliant with state standards and 
sponsorships with Registered Apprenticeship Programs under the 
Department of Labor (DoL). DoL's Employment and Training Administration 
(ETA) defines a pre-apprenticeship as, ``a program or set of strategies 
designed to prepare individuals to enter and succeed in a Registered 
Apprenticeship program.'' \2\
---------------------------------------------------------------------------
    \2\ Department of Labor, https://www.doleta.gov/OA/
preapprentice.cfm
---------------------------------------------------------------------------
    Since original introduction of the legislation, unemployment rates 
have dropped over 4% to a historic low since 2001, now at 3%, or near 
full-employment \3\. While well-intended, SVA opposes this vague 
standard, and the overall proposal as such an opportunity does not even 
exist for higher education students, such as remedial courses or SAT 
and ACT testing. There are multiple reasons for maintaining these 
valuable benefits for core training, such as actual apprenticeship and 
higher education opportunities.
---------------------------------------------------------------------------
    \3\ Department of Labor, Employment Rate, https://www.dol.gov/vets/
newsletter/pdf/September-2017-VETS-Monthly-Employment-Overview.pdf
---------------------------------------------------------------------------
    Pre-requisite requirements are often significantly more affordable, 
and using the benefits too soon can be the waste of a valuable earned 
commodity. For example, many students choose to take their first 
several years of education at a community college to preserve the 
benefit for later use. Affording the opportunity to use valuable GI 
Bill benefits for pre-requisites reduces the GI Bill to little more 
than a housing stipend-the practical use for the benefit in the case of 
this proposed legislation.
    The data to demonstrate a demand for this change is unclear, and 
coupled with the long-term negative effects on the program illustrate 
our concerns with this bill. Additionally, the current legislation uses 
as a basis of approval, ``the curriculum of the program is approved by 
a sponsor and the sponsor certifies to the Secretary that the program 
will prepare an individual with skills and competencies needed to 
enroll in a registered apprenticeship program.'' \4\ This vague 
standard is easily exploitable, with very few government resources 
available to enforce quality standards.
---------------------------------------------------------------------------
    \4\ H.R. 3018 legislative text, page 2, https://www.congress.gov/
115/bills/hr3018/BILLS-115hr3018ih.pdf
---------------------------------------------------------------------------
    SVA looks forward to working closely with this committee and its 
members to develop alternative solutions to address the potential rare 
instances where such a proposal may be beneficial.

H.R. 3634, Securing Electronic Records for Veterans' Ease (SERVE) Act 
    of 2017

    For student veterans entering higher education after service, life 
can be quite different when compared to the traditional 18-22-year-old 
students. More than 40% of student veterans are between the ages of 25-
34, and living in the dorms is not the preferred housing arrangement. 
\5\ For those who choose to live outside of campus housing, 
demonstrating proof of income is a standard requirement to meet for 
most rental options. Unfortunately, many landlords do not recognize the 
housing stipend (BAH) as a form of income to be applied to rental 
worthiness.
---------------------------------------------------------------------------
    \5\ U.S. Census Bureau. (2015). American Community Survey 1-year 
estimates.
---------------------------------------------------------------------------
    This legislation proposes requiring the Department of Veterans 
Affairs (VA) to furnish students a statement of income for housing 
purposes based on their anticipated BAH payments. This is a common-
sense solution that could easily solve a minor policy oversight that 
disproportionately affects student veterans with a tremendous burden. 
SVA is in strong support of this legislation.

DRAFT - To amend title 38, United States Code, to make certain 
    improvements to the use of educational assistance provided by the 
    Department of Veterans Affairs for flight training programs.

    For years, there have been examples of fraud, waste, and abuse 
within flight programs taking advantage of GI Bill resources. Former 
Chairman of the House Veterans Affairs Committee, Jeff Miller, 
perfectly captured the issue in a remark last year as he stated, ``The 
GI Bill flight school loophole is so big you could fly a 747 through 
it.'' \6\ While some veterans choose to pursue a vocation in flight 
programs, these programs continue to operate at levels requiring vastly 
more resources than limits on vocational training costs.
---------------------------------------------------------------------------
    \6\ International Business Times, http://www.ibtimes.com/gi-bill-
flight-school-benefits-could-be-slashed-congress-amid-tuition-loophole-
2294612
---------------------------------------------------------------------------
    VA data shows that while the number of students taking flight 
training went up by only 171 students, or 9%, between FY2013 and FY2014 
the total cost to taxpayers for this program grew by $37 million, or 
87%, during this same period. This data also showed in one case VA paid 
over $534,000 in tuition and flight payments for one student for one 
year. \7\ These costs were never assumed as part of the Post 9/11 GI 
Bill and must be examined. One can only attribute such a huge increase 
in flight training benefit costs to schools that saw a loophole that 
allowed them to increase their training costs.
---------------------------------------------------------------------------
    \7\ Department of Veterans Affairs, http://www.benefits.va.gov/
GIBILL/docs/job--aids/ComparisonToolData.xlsx
---------------------------------------------------------------------------
    Veterans who desire a career in aviation should be able to achieve 
those goals, and not at the expense of the sustainability of the 
overall program. VA currently affords a maximum of roughly $13,000 for 
vocational flight training programs \8\, yet many programs continue to 
exploit the loophole of operating through public and private programs, 
thereby undercutting the intent of the law for these programs. Some 
programs allege that flight training is more expensive by the inherent 
costs of the equipment, yet many examples of programs exist that do not 
have skyrocketing costs.
---------------------------------------------------------------------------
    \8\ Department of Veterans Affairs, https://www.benefits.va.gov/
GIBILL/resources/benefits--resources/rates/ch33/ch33rates080117.asp
---------------------------------------------------------------------------
    This legislation closes the flight loophole by redesignating flight 
training from public institutions, and SVA supports this change; we 
believe the standard cap of approximately $13,000 should be applied as 
the limit, in compliance with the intent of congress and the spirit of 
the law. It is worth noting that many of these programs cite a national 
shortage of pilots as the justification for this training; the shortage 
exists within fixed wing aviation (planes), whereas, the vast majority 
of these programs are training students in rotor wing (helicopters), 
for which there is no shortage of pilots. High cost programs for low 
paying jobs is a model that is difficult to support. \9\
---------------------------------------------------------------------------
    \9\ New York Times, ``Plenty of Passengers, but Where Are the 
Pilots?'', https://www.nytimes.com/2016/04/17/opinion/sunday/plenty-of-
passengers-but-where-are-the-pilots.html
---------------------------------------------------------------------------
    This legislation proposes to compress the rate of benefits, with 
two months of benefits being offered for everyone month of use and 
seeks to address the claims that these programs have a higher cost. 
Despite the intent behind this change, SVA maintains that flight 
programs should not receive double the benefits as the most expensive 
private schools in the country. While we believe this is an overly 
generous proposal, we understand the intent and will support the 
committee's efforts to strike a reasonable balance if this bill moves 
forward.
    For programs that cost more than the cap that the committee is 
proposing, SVA recommends that programs consider use of the Yellow 
Ribbon Program, just as schools that cost more than the private school 
cap of $22,800 do \10\. To say that these resources are not enough to 
cover the costs of the program simply indicates that the value of these 
programs is questionable at best; programs that are truly valuable will 
attract an investment from individuals if they have such enormous 
career prospects.
---------------------------------------------------------------------------
    \10\ ibid
---------------------------------------------------------------------------
    We thank this committee and its members for addressing the long-
overdue challenges of the flight school loophole, and hope to find an 
agreement that can close this loophole, preventing further abuse of the 
GI Bill.

DRAFT - To authorize the Secretary of Veterans Affairs to make grants 
    to eligible organizations for the provision of transition 
    assistance to members of the Armed Forces recently separated from 
    active duty service.

    It is important to understand the population of transitioning 
servicemembers as they exit the military. For example, servicemembers 
report that the military service experience promoted an interest in 
pursuing education. \11\ So, when servicemembers transition out of the 
military, it is unsurprising that the majority go to school. Yet, the 
Transition Assistance Program (TAP), continues to maintain a heavy 
emphasis on employment, and underemphasizes the importance of preparing 
veterans for a transition to college. The intention of this legislation 
is to provide a grant for services offered to prepare veterans for 
employment as a supplement to the TAP training.
---------------------------------------------------------------------------
    \11\ Institute for Veterans and Military Families, Student Veterans 
of America, ``Student Veterans: A Valuable Asset to Higher Education'', 
https://ivmf.syracuse.edu/wp-content/uploads/2017/09/Student-Veterans--
Valuable--9.8.17--NEW.pdf
---------------------------------------------------------------------------
    With unemployment rates hitting historic lows we believe this 
funding would be more valuable if spent, at least in-part, on providing 
veterans with college selection services and training. \12\ When a 
veteran leaves the military at an average age of 26 years old, it is 
unlikely that she or he will return to their high school for guidance 
and support. Additionally, since two-thirds of student veterans are 
first-generation college students, they do not have the family support 
and institutional knowledge about making an informed decision about 
college.
---------------------------------------------------------------------------
    \12\ ibid, Department of Labor, Employment Rate
---------------------------------------------------------------------------
    Since a majority of student are in-fact going directly to school, 
we propose incorporating relevant services for soon-to-be student 
veterans as a component of this legislation. We look forward to working 
with this committee in refining this legislation, and providing out 
full support in seeing its passage.

DRAFT - To amend title 38, United States Code, to provide for the 
    designation of State approving agencies for multi-State 
    apprenticeship programs for purposes of the educational assistance 
    programs of the Department of Veterans Affairs.

    As mentioned, SVA recognizes the use of the Post-9/11 GI Bill for 
registered apprenticeship opportunities through DoL. As a small 
percentage of veterans seek apprenticeships after separating from the 
military, the opportunity often receives very little attention. Many 
veterans who served in physically demanding roles while in the military 
decide to pursue degrees in higher education, allowing them to enter 
the workforce in a field entirely unrelated to their prior military 
occupation, but still utilizing their soft skills such as leadership, 
mission accomplishment, and adaptability.
    Similar to SVA's research on the use of the Post-9/11 GI Bill with 
NVEST, it would be prudent to perform similar study of the use and 
impact of the apprenticeship opportunities. Without such data, it is 
difficult to determine the effectiveness or outcomes of these programs. 
Assuming the programs do have reasonably beneficial outcomes, this 
legislation is a common-sense solution to allowing companies to work 
with the State Approving Agencies (SAA) \13\ of a single state, versus 
requiring approval in all 50 states for companies that cross multiple 
borders.
---------------------------------------------------------------------------
    \13\ National Association of State Approving Agencies, http://
nasaa-vetseducation.com/About.aspx
---------------------------------------------------------------------------
    The importance of including the SAAs as an approval authority in 
the process of reviewing these programs cannot be overstated. As the 
metaphorical watchdogs of the GI Bill, the SAAs provide an important 
quality check on all programs approved for use of GI Bill funds. 
However, SAAs maintain expertise primarily in higher education, and 
maintain reviewers with specific apprenticeship expertise for the staff 
of each SAA is worth consideration.
    The legislation before this body specifically addresses critical 
areas of policy for veterans as it relates to economic opportunity. The 
importance of economic opportunity is that it is the key to unlocking 
the potential leadership that veterans afford the country. Having been 
through rigorous training and tested under demanding conditions, 
veterans outperform their civilian peers in many aspects, especially 
education. From our NVEST data, we know that by nearly any academic 
standard, veterans are succeeding at higher rates than their 
traditional peers.
    Unfortunately, the story of success for veterans is often left 
untold due to the structure of various institutions with the ability to 
highlight their success. We are thankful that this committee pays such 
particular attention to the importance of economic opportunity policy. 
Indeed, tools of economic opportunity fuel successful transitions from 
the military to civilian life; these tools afford veterans who earned 
the right to go to school the opportunity to excel in higher education; 
they provide opportunities to own homes, businesses, and provide a 
better life for families.
    However, economic opportunity policy is often buried within the 
bureaucracy of various entities beyond this body. For example, we have 
witnessed the exceptional efforts of many dedicated Americans serving 
DoL in the Veterans' Employment and Training Service (VETS) \14\ 
office, yet it is unclear as to whether the office is given the 
priority it deserves. At VA, discussion of the GI Bill or any other 
economic opportunity tool is the last topic on the agenda for any 
veteran service organization meeting, if discussed at all; yet over $75 
billion has been invested in student veterans through the GI Bill \15\ 
-not an insignificant amount by any measure.
---------------------------------------------------------------------------
    \14\ DoL VETS, https://www.dol.gov/vets/aboutvets/aboutvets.htm
    \15\ Department of Veterans Affairs, Total Expenditures, https://
www.benefits.va.gov/REPORTS/abr/ABR-Education-FY16-03022017.pdf
---------------------------------------------------------------------------
    Some veterans face challenges as servicemembers in the military and 
through their transition. The challenges that some face, however, 
should not be a reason to shy away from the success of millions of 
veterans. Thanks to organizations like Got Your 6 \16\, the USO \17\, 
Raytheon \18\, the Bill & Melinda Gates Foundation \19\, the Lumina 
Foundation \20\, and dozens of other incredible people, a message of 
veteran empowerment is beginning o find its way to the consciousness of 
the American public. Government is slow to catch-up, but we believe 
this Administration has the power to elevate the importance and 
potential of economic opportunity for veterans.
---------------------------------------------------------------------------
    \16\ Got Your 6, https://gotyour6.org/about/who-we-are/
    \17\ The USO, https://www.uso.org/about
    \18\ Raytheon, http://www.raytheon.com/responsibility/armed-
services/
    \19\ Bill & Melinda Gates Foundation, https://
www.gatesfoundation.org/How-We-Work
    \20\ Lumina Foundation, https://www.luminafoundation.org/our-work
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this committee and the 
entire congress to ensure the success of all generations of veterans 
through education.

                                 <F-dash>
                       Statements For The Record

                  HELICOPTER ASSOCIATION INTERNATIONAL
                    Submitted by: Matthew S. Zuccaro
    President / CEO

    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee, Helicopter Association International (HAI) thanks the 
subcommittee for holding a hearing on the important issue of 
educational assistance provided to veterans for flight training.
    HAI unequivocally supports financial assistance to veterans for 
flight training programs. With this help, veterans receive the training 
necessary to transition to a career in the civilian aviation industry.
    From a personal perspective, I know the life changing effect the 
Veterans flight training program can have on one's life. Upon my return 
from Vietnam as an Army helicopter pilot I utilized the Veterans flight 
training program to expand my overall piloting capabilities. That 
action had a direct beneficial effect on my 50-year aviation career.
    The U.S. civilian general aviation sector generates more than one 
million jobs and more than $200 billion for the nation's economy - and 
it is seeking pilots. Today's flight training programs prepare 
tomorrow's pilots of police and firefighting helicopters, air 
ambulances, charter and corporate aircraft, and airliners.
    Being a civilian commercial pilot is a rewarding career. However, 
it requires thorough, in-depth, and complex training. Learning to fly a 
helicopter is even more expensive than fixed-wing training because of 
the high costs associated with operating a complex rotorcraft.
    HAI believes that that as a nation, we have an obligation to meet 
the needs of veterans by keeping the promises made to them, including 
providing financial assistance to help them achieve their educational 
goals. We applaud the members of the Veterans' Committee for their 
efforts to ensure veterans receive the benefits they have earned by 
stepping forward in our nation's defense.
    HAI's goal is to ensure an outcome that supports veterans in their 
transition to the civilian economy while endorsing the creation and 
administration of fiscally sound, flexible, and responsive flight 
training benefit programs for this deserving group.
    HAI supports the need for improved fiscal responsibility by the 
government and strongly supports tightening the existing regulations of 
the Department of Veterans Affairs (VA) to curb recent abuses by a 
minority of flight schools affiliated with collegiate degree programs. 
We applaud the committee's determination to strike a balance between 
providing opportunity for veterans while controlling excessive costs.
    HAI also supports congressional efforts to provide greater 
flexibility and more efficient funding mechanisms to help veterans 
complete their flight training. Long industry experience has 
demonstrated that flight training over a shorter time is more 
economical and effective for the student pilot than the same amount of 
training over an extended period. Consideration of accelerated payments 
is one option that allows veterans a more effective and economical path 
to flight training.
    Caps on payments for flight training tuition and fees unfairly 
impact the ability of veterans to pursue well-paying jobs in the 
civilian aviation sector. These caps deprive them of the ability to 
pursue collegiate flight training, a common path to a career as a 
commercial helicopter pilot.
    Tools like the Yellow Ribbon Educational Enhancement Program (YRP) 
are helpful in offsetting costs that exceed current VA educational 
caps. Participating institutions agree to cover a portion of the 
difference between the tuition and the amount of VA coverage. The VA 
matches the institution's contributions to further reduce or eliminate 
the veteran's out-of-pocket expenses.
    This program would not be necessary if caps on flight training were 
removed. However, with caps in place, YRP can be an effective tool to 
extend the resources available to veterans.
    Finally, HAI supports allowing VA benefits to be used for veterans 
as they train to obtain a private pilot license. Obtaining this 
certificate is the required first rung on the ladder to a career as a 
commercial pilot. Placing this financial stress solely on our veterans 
means fewer and fewer will be able to pursue a commercial helicopter 
pilot career.
    Requiring veterans to cover the costs associated with their private 
pilot license is a discriminatory financial burden that most veterans 
can ill afford. Removing this financial impediment would be a positive 
step toward providing veterans with the tools they need to transition 
to a civilian aviation career.
    HAI applauds today's dialogue and discussion. We appreciate the 
leadership's willingness to listen to our perspective and consider our 
position. HAI remains committed to working with the Veterans' Affairs 
Committee and all of Congress to ensure our nation delivers on its 
commitment to our veterans who have honorably and unselfishly served 
our nation.

H.R. 3108

10.11.17 Testimony re: H.R. 3018, Veterans' Entry to Apprenticeship Act 
    to the HVAC Subcommittee on Economic Opportunity

    Subcommittee Chairman Arrington, Ranking Member O'Rourke, and 
members of the subcommittee on Economic Opportunity: thank you for 
having me here today to speak about an issue of immense importance to 
our servicemembers: the transition from service life to civilian life. 
Having served in the United States Air Force myself for 26 years, I 
know how difficult it can be to navigate the job search as a private 
citizen. My bill, the Veterans' Entry to Apprenticeship Act (H.R. 
3018), will ease this process for our outgoing servicemembers by 
allowing them to use the education benefits they have already earned to 
participate in pre-apprenticeship programs that are proven to increase 
the likelihood of gainful employment. At a time when our veterans are 
seeing daunting rates of underemployment and our national skills-based 
workforce is shrinking, we must find creative solutions to bolster the 
resources we are offering our veterans.
    The Bureau of Labor Statistics estimates that, in 2016, the annual 
unemployment rate for post-9/11 veterans was 5.1 percent, compared to 
the national average of about 4.6 percent. \1\ Although we have seen 
unemployment rates decrease veterans overall since 2011, their rate of 
underemployment is actually increasing. In fact, in 2016, more than 
27,000 veterans were getting help from grantees - a 23 percent growth 
over 2015. \2\ In other words, while more veterans are finding jobs, 
they aren't finding the right jobs that allow them to take care of 
their families, advance their careers, or find new career paths. Many 
veterans today have to work two or even three jobs just to make ends 
meet.
---------------------------------------------------------------------------
    \1\ BLS, 2016
    \2\ Military Times, March 2017
---------------------------------------------------------------------------
    What's worse is that we know that businesses and organizations want 
to hire veterans. According to a 2016 report by the U.S. Chamber of 
Commerce's Hiring Our Heroes program found that veterans were ranked 
third on employers' list for priority recruitment, behind women and 
candidates with advanced degrees. But while evidence shows that 
businesses across the country want to hire and train veterans, many 
cannot attract untrained veterans to their programs due to basic fees 
the veterans are unable to pay out of pocket after they return from 
service.
    Additionally, our nation is facing a growing shortage of qualified 
skills-based and trade-based workers. According to a study conducted in 
2012, 53 percent of skilled US workers were 45 years or older and 20 
percent were over the age of 55. This shortage is even greater for 
employees in highly technical fields, like cybersecurity.
    It's imperative that we attract a new, younger workforce willing to 
apply themselves in these highly technical fields if we hope to remain 
competitive in the global economy.
    A way to fix this problem is to make it easier for veterans to take 
advantage of apprenticeship programs in skills-based fields. In 
particular, the Department of Labor has endorsed pre-apprenticeship 
programs as a path to helping individuals learn about new careers, 
acquire new, trade-based skills, qualify to meet minimum standards for 
other federal apprenticeship programs, and get a leg-up on 
apprenticeship applications.
    However, currently, GI Bill benefits may not be used to supplement 
the cost of Department of Labor approved pre-apprenticeship training in 
skilled industries. This simply does not make any sense.
    the Veterans' Entry to Apprenticeship Act would remedy this issue 
by requiring the Department of Veterans Affairs to allow post-9/11 GI 
Bill benefits to be used to cover costs of pre-apprenticeship programs 
in addition to apprenticeship programs.
    This is a common sense step that would provide veterans with 
additional resources to acquire new skills, give businesses a cost-
effective path to a younger, willing workforce, and provide a pipeline 
of new workers in highly technical fields for the future workforce.
    With an increasing number of post-9/11 veterans looking to enter 
the workforce and an estimated 453,000 veterans facing unemployment, 
now is the perfect time to encourage our warfighters to pursue careers 
in high-demand occupations. Expanding job training opportunities for 
veterans not only makes sense for our veterans, but is also a win for 
businesses.
    Again, thank you for allowing me to speak on this important issue 
for our veterans and for our national economy. Additionally, I would 
like to thank the 13 other cosponsors, many of which are members of 
this committee, as well as the various outside groups including: the 
National Guard Association of the United States, the Reserve Officers 
Association, the Enlisted Association of the National Guard of the 
United States, the National Roofing Contractors Association, the 
National Association of Home Builders, and the Associated General 
Contractors of America for their support.

                                 <F-dash>
          ADDENDUM: EXTENDED REMARKS OF REP. JIM HIMES (CT-04)
    ``H.R. 3634, the Securing Electronic Records for Veterans' Ease 
(SERVE) Act''
    Thank you Chairman Arrington, Ranking Member O'Rourke for the 
opportunity to extend my remarks on H.R. 3634, the Securing Electronic 
Records for Veterans' Ease, or SERVE Act.
    H.R. 3634 would require the Department of Veteran Affairs make 
documentation of Post-9/11 GI Bill monthly housing stipend accessible 
and available online. Student veterans will use this documentation to 
provide needed verification to housing agents, leasing companies, 
apartment managers, and landlords.
    During the second panel of the testimony on Wednesday, October 
11th, MG (Major General) Robert M. Worley II (Ret.) stated that the VA 
supported the intent of the bill, but similar information is currently 
available in a recently launched Statement of Benefits letter, which is 
printable and accessible through Vets.gov. It was further explained 
that the letter provides a link to the amount of a veteran's monthly 
housing stipend and other benefits and eligibility information under 
the Post-9/11 GI Bill.
    The intent of this bill is to provide our veterans with a letter 
that can certify that they receive the Post-9/11 GI Bill BAH stipend, 
something that a reasonable person would consider to qualify as proof 
of income (POI). The statement of benefits available to veterans is 
insufficient.
    To illustrate this point I submit for the record documents from the 
VA's websites -Vets.gov and e-benefits- to include the Statement of 
Benefits letter that MG Worley II referenced during his testimony, as 
well as a benefit verification letter that provides documentation 
verifying disability compensation.
    The VA's new Post-9/11 GI Bill Statement of Benefits letter 
(Exhibit A.1) contains the veteran's name, date of birth, file number, 
eligibility percentage, total months of benefits earned, the number of 
months used, the number of months remaining and the date in which the 
benefits will expire. This information has no value for a student who 
needs proof that they receive a housing stipend. It does not even 
clarify if the veteran is currently receiving benefits.
    The hyperlink ``find out how much money you can expect to get based 
on your eligibility percentage'' takes the veteran to the GI Bill 
Comparison tool (Exhibit A.2). This tool is not linked to the veteran 
or their individual statement of benefits. In fact, the tool has 
multiple, drop- down menus to select military status; GI Bill benefit; 
amount of cumulative Post-9/11 active duty service; class preference; 
and a search box with input for a zip code, a school, location or 
employer to search benefits information not based on or associated 
directly with the veteran. Entering the zip code for Washington, D.C. 
lists benefits based on the academic institution (Exhibit A.3). The 
result says ``You may be eligible for up to: Tuition (annually) 100% 
in-state, Housing (monthly) $2312, Books (annually) $1000.'' Though 
this is an excellent planning tool to allow veterans to weigh their 
options when using their education benefits, it is abysmally lacking in 
terms of the VA's testimony before the subcommittee that this 
information is similar to what my bill would require.
    The VA benefit verification letter (Exhibit B) is easily accessible 
through e-benefits and serves as the reference point for Sec. 2 of H.R. 
3634 ``(j) Provision of Housing Stipend Payment Information.'' This 
letter clearly certifies the amount of money a veteran is receiving and 
the purpose of the benefit.
    I urge the Chairman, Ranking Member, and distinguished members of 
the subcommittee to look at and consider the exhibits submitted.
    Veterans need housing. Student veterans and other eligible 
beneficiaries need to have suitable proof of income in order to do 
this.
    Again, I would like to thank the subcommittee for its consideration 
of the Securing Electronic Records for Veteran's Ease Act and I 
continue to look forward to working with the members of the committee 
to continue to support our student veterans.

                                 <F-dash>
                        HONORABLE LEE M. ZELDIN
                       H.R. 815 Written Testimony
    Thank you Mr. Chairman for holding this hearing today. Supporting 
our nation's veterans is a responsibility we all share. These brave men 
and women repeatedly answered the call to service to ensure the safety 
and security of our country and protect our democratic values. Not only 
do we owe our veterans gratitude and respect for the sacrifices they 
made, we have a duty to provide them with meaningful support to pursue 
the American Dream they honorably protected, a cornerstone of which is 
home ownership.
    The U.S. Department of Veterans Affairs (``VA'') loan program, 
originally part of a national effort to move from a wartime economy to 
a peacetime economy and assist returning wartime veterans with 
readjustment to civilian life, remains one of the most powerful home 
loan programs on the market for service members, veterans and military 
families today. The greatest single benefit of this program is that 
qualified borrowers can purchase a home without having to make a down 
payment provided the loan falls within the statutory loan guaranty 
limit. This is a tremendous financial advantage. Saving money for a 
down payment and building credit can be difficult for service members 
and their families who are constantly on the move and are often one 
income families. VA guaranteed home loans include significant benefits 
that open the doors of home ownership to veterans who might otherwise 
be unable to secure financing for such a purchase.
    In 2008, the Veterans' Benefits Improvement Act, (Public Law 110-
389), Section 501, increased the VA's maximum loan guaranty amounts. 
Under this provision, conforming maximum loan guaranty amounts ranged 
from a base of $417,000 to a high-cost-area limit of $625,500 and 
enabled veterans more flexibility to choose homes in locations that 
were best suited to the needs of their families. Public Law 110-389 
expired in 2014, resetting the VA's effective loan guaranty amount to 
those established by the Federal Housing Finance Agency (FHFA) - 
approximately $424,100 in most parts of the country. Under the current 
law, veterans who lack the savings to meet a down payment requirement 
for loans outside the parameters of the statutory loan guaranty limits, 
but are otherwise financially able to make the mortgage payments and 
meet the VA residual income test are barred from purchasing homes that 
best meet the needs of their families. The current geographic loan 
guaranty limit prevents veterans from purchasing homes that are in the 
best interests of their families.
    According to the VA, 705,474 loans were guaranteed in FY2016 with 
an average loan amount totaling $253,243. In my home district of 
Suffolk County, the median sale price of residential real estate ranges 
from $365,000 across the district to $1 million or more for homes 
located on the eastern end of Long Island.
    It is important to note here that VA loans have the lowest 
foreclosure rate of any other mortgage type in the United States. The 
low foreclosure rate may be largely due in part to the VA's residual 
income test requirement and tight property inspection restrictions at 
the loan approval phase ensuring that the veteran applicant can meet 
mortgage payments and still fulfill other financial obligations. In 
addition, the VA offers supplemental servicing assistance and can take 
an active role in interceding with the loan servicer on behalf of the 
veteran to explore all options to avoid foreclosure in the event a 
veteran encounters problems making their monthly mortgage payments. The 
inherently disciplined and responsible military culture of the veteran 
and the concentration of VA loans in a smaller number of more 
experienced and better capitalized lenders may also contribute to the 
lower foreclosure rates for VA home loans.
    H.R. 815 provides relief for veterans residing in high-cost of 
living areas, not only in my district but across the country. 
Eliminating the home loan guaranty limits and removing the statutory 
index to the loan limits allow veterans the ability to choose homes in 
neighborhoods that are best suited to the needs of each individual 
family. I urge all members to support this critical piece of 
legislation, and I thank Subcommittee Chairman Arrington for his 
leadership on this issue.

                                 <F-dash>
                   MORTGAGE BANKERS ASSOCIATION (MBA)
    MBA Statement for the Record for ``A legislative hearing on the 
following bills: ``H.R. 815; H.R. 3018; H.R. 3634; H.R. 3949; H.R. 
3965; a draft bill entitled, ``To amend title 38, United States Code, 
to eliminate the applicability of certain provisions of the 
Administrative Procedure Act to housing and business loan programs of 
the Department of Veterans Affairs''; and a draft bill entitled, ``To 
amend title 38, United States Code, to make certain improvements to the 
use of educational assistance provided by the Department of Veterans 
Affairs for flight training programs.''

    The Mortgage Bankers Association (MBA) \1\ appreciates the 
opportunity to submit this statement for the record regarding the 
Subcommittee on Economic Opportunity hearing held on October 11, 2017. 
MBA commends Chairman Jodey Arrington and Ranking Member Beto O'Rourke 
for holding this important hearing to address the vital concern of 
veterans' access to mortgage credit. Considering their personal 
contributions to defending our country, veterans merit special 
consideration with regards to accessing capital. MBA supports 
Congressman Lee Zeldin's intent to allow veterans access to larger 
loans to help them purchase homes in high-cost areas, however we 
believe there are potential unintended consequences that need to be 
addressed to ensure the bill does not undermine the safety of the VA 
program.
---------------------------------------------------------------------------
    \1\ The Mortgage Bankers Association (MBA) is the national 
association representing the real estate finance industry, an industry 
that employs more than 280,000 people in virtually every community in 
the country. Headquartered in Washington, D.C., the association works 
to ensure the continued strength of the nation's residential and 
commercial real estate markets; to expand homeownership and extend 
access to affordable housing to all Americans. MBA promotes fair and 
ethical lending practices and fosters professional excellence among 
real estate finance employees through a wide range of educational 
programs and a variety of publications. Its membership of over 2,200 
companies includes all elements of real estate finance: mortgage 
companies, mortgage brokers, commercial banks, thrifts, REITs, Wall 
Street conduits, life insurance companies and others in the mortgage 
lending field. For additional information, visit MBA's Web site: 
www.mortgagebankers.org.
---------------------------------------------------------------------------
    With rising home prices in the US, the current VA loan program has 
not kept pace. The average VA loan amount in 2004 was for $134,230, 
which is under the basic entitlement limit. However as of 2015, the 
average new loan balance has risen to $238,560. A full 82 percent of VA 
loans now exceed the $144,000 basic entitlement. And yet, with a 
default rate of 2 percent, veterans are roughly half as likely to 
default on their mortgage compared to the population at large, despite 
their lower downpayment requirements. With this in mind, addressing the 
opportunities and limits for this growing population of home buyers is 
a timely and important undertaking. Veterans living in high-cost areas 
such as Long Island, California, or the Washington, DC area deserve the 
increased access to credit necessary to be competitive in the 
marketplace.
    However, MBA does have concerns about changing the current policy. 
The bill as written could allow some veterans to collect several 
investment properties while providing no down payment of their own. 
Such higher-risk uses of the VA entitilement could put both veterans 
and the VA program at risk. In addition, the bill does does not address 
the need for certain servicing changes that are needed in the program 
today, and could be exacerbated by the proposed changes in the bill. 
Finally, MBA is concerned that 30 days is not adequate time to 
implement the policy change. Lenders will need a year to fully update 
their systems, processes, technology, and training.

No Borrowing Cap

    Currently, the law limits the loan amount a veteran can receive 
with the VA guarantee. As it is written, H.R. 815 would eliminate this 
borrowing cap, potentially allowing veterans to acquire several homes, 
with no investment of their own capital. This incentive could lead to 
veterans collecting rental properties under the umbrella of their VA 
entitlement. Not only does such a practice go against the original 
purpose of the VA-guaranteed loan, but it also poses a risk to the 
veterans, the VA loan guaranty program, and the taxpayers that stand 
behind it. A downturn in the housing market or in the broader economy 
could have a precipitous effect on a veteran borrower's ability to 
repay all of his or her mortgages. MBA has no problem with veterans 
purchasing a new home with their unused entitlement while retaining 
their existing home. However, we are concerned that the bill could be 
used to collect multiple investment properties, rather than simply 
improving a veteran's purchasing power in a high cost market. 
Accumulation of multiple investment properties introduces new risks for 
veterans, the VA program, and the taxpayer that should be taken into 
account.
    MBA urges the Committee to consider provisions that would target 
the expanded benefit under this bill to allow veterans to boost their 
purchasing power for a primary residence in certain high-cost markets. 
MBA would welcome the opportunity to work with the Committee to focus 
the bill on its intended purpose.

Servicing Considerations

    We also believe that this bill provides an opportunity to authorize 
the VA to re-examine the VA loan modification regime and improve it. VA 
modifications routinely offer veterans less relief and smaller payment 
reductions than other government-guaranteed loan programs. These 
challenges will only be compounded if interest rates rise. Allowing the 
guarantee to be used to provide loan modification relief-perhaps in a 
similar fashion to FHA's partial claim-will help veterans in financial 
distress save their homes.
    Expansion of VA's suite of loss mitigation options is especially 
prudent in light of the proposed changes to the VA loan limits. These 
prospective changes will undoubtedly result in more potential taxpayer 
exposure through larger guarantees. Developing more efficient loss 
mitigation processes will limit these losses and provide benefits to 
all veterans who may run into temporary troubles in making their 
mortgage payments.

Conclusion

    We thank the members of the Subcommittee on Economic Opportunity 
for their attention to the VA loan program and are especially grateful 
to Congressman Zeldin for his leadership on addressing these important 
issues through his legislation. MBA recognizes that rising home prices 
and high-cost areas necessitate reforms to VA loan limit regulations, 
and we stand ready to help the Subcomittee work through these concerns. 
We also strongly encourage the Committee to consider amending the bill 
to to provide VA with the authority to improve the program's loss 
mitigation options. While we acknowlede its laudable intent, H.R. 815 
does not yet account for the aforementioned concerns, and we look 
forward to addressing these issues from all sides, to protect veteran 
borrowers, the program, and the taxpayers that support it.

                                 <F-dash>
                       VETERANS EDUCATION SUCCESS
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee:
    Veterans Education Success (VES) appreciates the opportunity to 
share its perspective on the DRAFT legislation before the Subcommittee: 
To amend title 38, United States Code, to make certain improvements to 
the use of educational assistance provided by the Department of 
Veterans Affairs for flight training programs.
    VES is a non-profit organization focused on protecting the 
integrity and promise of the GI Bill and other federal educational 
programs for veterans and servicemembers.
    The purpose of the Post 9/11 GI Bill is to aid service members and 
veterans in the transition from military service into the civilian 
workforce. Since its inception, thousands of military-connected 
students have had the opportunity to take advantage of this generous 
benefit in hopes of increasing their economic mobility and the 
socioeconomic standing of their families. Unfortunately, some schools 
have also taken advantage of veterans benefits in a way that is less 
than admirable. This has been the case for certain flight schools, 
which is why Veterans Education Success supports the intent of this 
bill.
    With the overall amount of GI Bill money going to flight school 
training dropping from $79.8 million in 2014 to $48.4 million in 2016, 
it is evident that VA has made commendable progress in tightening the 
oversight and execution of reimbursement of costs to flight training 
schools for enrolled veterans. While this work by VA is commendable, we 
believe this type of oversight uses valuable resources that would be 
better focused in other areas. Similar to the annual tuition and fees 
cap for private institutions of higher learning (IHL), the cap 
recommended in this bill offers an amenable solution, especially if 
schools opt to participate in the Yellow Ribbon Program.
    According to data provided by VA, the average tuition for veterans 
attending 86 of the 102 schools that received GI Bill money for flight 
training in 2016 was below the $22,800 proposed cap (the 2017/18 
national maximum for private schools). For 7 of the 16 remaining 
schools, the cost was slightly above the cap. With this proposed bill, 
should these schools choose to match half of the tuition gap by 
participating in the Yellow Ribbon program, VA would match the other 
half and veterans would be able to successfully complete their training 
without needing to take on additional student loan debt.
    Despite the large number of institutions who provide flight 
training at costs around $22,800 per student per year, in FY16 the VA 
reported a number of schools charging $130,000, on average. While 
representatives from these schools argue this type of training is 
costly due to high-end equipment, the cost for similar training at 61% 
of the schools who accepted GI Bill benefits was significantly lower. 
This is concerning at best. To continue to pay these schools at such 
high costs is not an appropriate use of tax payer money.
    While Veterans Education Success supports the intent of the bill 
and a cap similar to that already in existence for private IHLs, we are 
concerned about the proposal to offer accelerated payments for those 
choosing to attend these schools. Accelerated payments burn through a 
student's benefits leaving them without the opportunity to finish a 
college degree. Given the availability of the Yellow Ribbon Program, 
VES does not believe that accelerated payments are a necessary solution 
to covering the extraneous costs of certain flight training programs.
    We appreciate the amount of time, effort, and attention the 
Committee has given to ensure military-connected students receive 
optimal training and education for a successful career in the civilian 
workforce. Thank you for considering the views of VES on this important 
topic.

                                 <F-dash>
          VETERANS OF FOREIGN WARS OF THE UNITED STATES (VFW)
                      BY: CARLOS FUENTES, DIRECTOR
                      NATIONAL LEGISLATIVE SERVICE
``H.R. 3965 and draft bill entitled, ``To amend title 38, United States 
Code, to make certain improvements to the use of educational assistance 
  provided by the Department of Veterans Affairs for flight training 
                               programs''
    Chairman Arrington, Ranking Member O'Rourke and members of the 
subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars (VFW) and its Auxiliary, thank you for the opportunity to present 
our views on legislation pending before the subcommittee.

H.R. 3965, Veterans Armed For Success Act

    The VFW has serious concerns with this legislation, which would 
authorize VA to provide grants to organizations who assist veterans 
with resume assistance, interview training, and job recruitment 
training, and related services to assist veterans in obtaining 
employment.
    The VFW has a strong working relationship with VA and the 
Department of Labor Veterans Employment Service (DOL-VETS). While VA 
administers several programs to ensure veterans have successful and 
meaningful careers after leaving military service, the VFW believes 
that direct employment services should continue to be administered by 
DOL-VETS. That is why we are concerned that this bill would require VA 
to administer a new program rather than build on existing programs 
administered by DOL-VETS.
    Furthermore, the VFW believes that this legislation would duplicate 
and impede efforts by DOL-VETS to assist recently discharged veterans 
obtain employment through its Jobs for Veterans State Grant (JVSG) 
program. Organizations that would like to assist veterans in obtaining 
meaningful post-military careers should visit a local American Jobs 
Center and partner with a Disabled Veterans' Outreach Program (DVOP) 
specialist or a Veterans' Employment Representative (LVER). Through the 
JVSG program, DVOPs and LVERs across the country work to connect 
employers seeking to hire veterans and veterans qualified to fill such 
positions. This includes providing the same services required by this 
legislation, but also ensure veterans are connected with permanent 
jobs, which this legislation would not do.
    Instead this legislation would authorize organizations who receive 
grants to define what constitutes ``careers''. The VFW is concerned 
that allowing grant recipients to define what is a successful outcome 
would enable organization who receive grants to provide subpar services 
which fail to help veterans obtain meaningful careers. In fact, DOL-
VETS ended a similar program called Veterans Workforce Investment 
Program because grantees were given large grants to help disabled 
veterans obtain employment, but were unable to meet objectives or 
delivered negligible outcomes. The VFW urges the subcommittee to 
improve DOL-VETS JVSG program instead of repeating past mistakes.

Draft Legislation to Use Educational Assistance Provided by the 
    Department of Veterans Affairs (VA) for Flight Training Programs

    The VFW supports this legislation, which would place a cap on the 
amount of tuition and fees that may be paid under the Post-9/11 GI Bill 
for programs of education in which a public institution of higher 
education enters into an agreement with a private entity to provide 
such education. However, the VFW would like to suggest a recommendation 
to improve this legislation.
    Currently, third party training programs that contract with public 
schools are able to charge unlimited fees since public schools have no 
set dollar amount cap. The law states only that the Post-9/11 GI Bill 
covers the actual cost of in-state tuition and fees. In the past couple 
years, it has come to light that some contracted flight training 
programs have charged exorbitant fees, which far exceeded the cost of 
an average in-state education, to profit from exploitation of this 
loophole. The VFW believes this loophole must be closed by placing a 
reasonable cap on these flight training programs.
    Still, we believe that veterans should have a path to receive the 
training necessary to enter highly technical, high demand fields like 
aviation, which offer good paying jobs to those who are qualified. We 
also recognize that it may not be realistic for certain flight schools 
to provide that training within a $22,805.34 cap per academic year. To 
mitigate this concern, this legislation would authorize VA to provide 
accelerated payments of twice the monthly entailment amount for tuition 
and fees. Doing so would enable predatory institutions to continue to 
gouge VA and force veterans to forgo eligibility months simply because 
the cap for such programs is not sufficient.
    For this reason, we urge the Subcommittee to authorize VA to 
determine what reasonable caps should be for flight training and 
similarly contracted training in other high demand fields, so that 
veterans can continue to have access to these kinds of programs, but 
ensure such programs offer transparency in their fee schedules and 
cannot simply charge the government an arbitrary rate. To ensure VA 
does not set unreasonable caps on contracted programs, the VFW 
recommends requiring VA to seek congressional approval before proposed 
caps are implemented.
    The VFW also continues to support strict enforcement of standing VA 
policies, which ensures that third party contractors and their partner 
schools are charging appropriate fees, while continuing to offer high 
quality training to veterans.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
